<html>
<title> - THE GROWING RUSSIAN MILITARY THREAT IN EUROPE</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 
                          THE GROWING RUSSIAN


                       MILITARY THREAT IN EUROPE

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 115-1-2]
                             
                             
                             
                             
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                             


                       Available via www.csce.gov
                       
                       
                       
                             ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 25-605 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                       
                       


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,      ROGER F. WICKER, Mississippi,
Co-Chairman                            Chairman
ALCEE L. HASTINGS, Florida             BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama            JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas              CORY GARDNER, Colorado
STEVE COHEN, Tennessee                 MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina         JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois               THOM TILLIS, North Carolina
SHIELA JACKSON LEE, Texas              TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                  SHELDON WHITEHOUSE, Rhode Island

                                      

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense


                                  [ii]


                          THE GROWING RUSSIAN
                       MILITARY THREAT IN EUROPE

                              ----------                               
May 17, 2017

                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher H. Smith, Co-Chairman, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Sheldon Whitehouse, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    15
Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    17
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19
Hon. Cory Gardner, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    21
Hon. Marco Rubio, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    23
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................    24

                               WITNESSES

Dr. Michael Carpenter, Senior Director, Penn Biden Center for 
  Diplomacy and Global Engagement................................     4
Stephen Rademaker, Principal, The Podesta Group..................     6
Ambassador Steven Pifer, Senior Fellow and Director of the Arms 
  Control and Non-Proliferation Initiative, The Brookings 
  Institution....................................................     9

                                 [iii]
                                 
                               APPENDICES

Prepared statement of Hon. Roger F. Wicker.......................    36
Prepared statement of Hon. Christopher H. Smith..................    38
Prepared statement of Hon. Benjamin L. Cardin....................    39
Prepared statement of Hon. Michael Burgess.......................    40
Prepared statement of Dr. Michael Carpenter......................    41
Prepared statement of Stephen Rademaker..........................    45
Prepared statement of Ambassador Steven Pifer....................    50


                          THE GROWING RUSSIAN



                       MILITARY THREAT IN EUROPE

                              ----------                              


                              May 17, 2017

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 9:30 a.m. in Room 208-209, Senate 
Visitors Center (SVC), Washington, DC, Hon. Roger F. Wicker, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Roger F. Wicker, Chairman, 
Commission on Security and Cooperation in Europe; Hon. 
Christopher H. Smith, Co-Chairman, Commission on Security and 
Cooperation in Europe; Hon. Sheldon Whitehouse, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. Jeanne 
Shaheen, Commissioner, Commission on Security and Cooperation 
in Europe; Hon. Robert Aderholt, Commissioner, Commission on 
Security and Cooperation in Europe; Hon. Cory Gardner, 
Commissioner, Commission on Security and Cooperation in Europe; 
Hon. Marco Rubio, Commissioner, Commission on Security and 
Cooperation in Europe; and Hon. Benjamin L. Cardin, Ranking 
Member, Commission on Security and Cooperation in Europe.
    Witnesses present: Dr. Michael Carpenter, Senior Director, 
Penn Biden Center for Diplomacy and Global Engagement; Stephen 
Rademaker, Principal, The Podesta Group; and Ambassador Steven 
Pifer, Senior Fellow and Director of the Arms Control and Non-
Proliferation Initiative, The Brookings Institution.

    HON. ROGER WICKER, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Good morning to everyone. Our first hearing on 
April 26th rightly focused on human rights abuses within 
Russia. Today's hearing will examine Russia's actions beyond 
its borders, specifically Moscow's use of military force to 
further its ambitions. The mandate of the Helsinki Commission 
requires us to monitor the acts of the signatories, which 
reflect compliance with or violation of the articles of the 
Final Act of the Conference on Security and Cooperation in 
Europe, also known as the Helsinki Final Act.
    Even a casual observer of international affairs would 
recognize that Russian military aggression has posed a 
tremendous threat to the European security in recent years. The 
Russian leadership has chosen an antagonistic stance, both 
regionally and globally, as it seeks to reassert its influence 
from a bygone era. The actions taken by the Russian leadership 
under the aggressive posture of Vladimir Putin have, without 
any doubt, violated commitments enshrined in the Helsinki Final 
Act and other agreements.
    To name three examples: Number one, Russia has breached its 
commitment to refrain from the threat or use of force against 
other states. Number two, Russia has breached its commitment to 
refrain from violating their sovereignty, territorial 
integrity, or other political independence. And third, Russia 
has breached its commitment to respect other states' right to 
choose their own security alliances. Many of Russia's neighbors 
have faced Russian military aggression in recent years. Ukraine 
and Georgia have both seen important parts of their territories 
forcibly occupied, including the illegal attempted annexation 
of Crimea in 2014.
    Russian forces continue to be present in Ukraine, Georgia 
and Moldova, against the wishes of the governments of those 
countries. In addition to its direct aggression toward its 
neighbors, Moscow has also made it a priority to undermine the 
effective functioning of several conventional arms control 
agreements and measures for confidence and security building.
    These measures, to which Russia is a party, include the 
treaty on conventional armed forces in Europe, which limits 
heavy ground and air weapons in Europe and provides information 
on current arms holdings, including their location. Number two, 
the Open Skies Treaty, which provides for mutual unarmed aerial 
reconnaissance of member states. And, number three, the Vienna 
document on confidence and security-building measures, which 
provides for information exchanges, on-site inspections, and 
notifications of the military activities, arms, and force 
levels of OSCE-participating states. These agreements, along 
with others such as the INF Treaty--which Russia is also 
violating--together form an interlocking web of commitments 
that have proved fundamental to the stability of the post-Cold 
War European security architecture. They were designed to 
enhance military transparency and predictability, thereby 
increasing confidence among the OSCE-participating states. 
Unfortunately, the actions of the Russian leadership in recent 
years have demonstrated that it sees little value in the 
transparency and predictability that have kept the peace in 
Europe.
    I want to reiterate my dismay regarding the tragic death of 
American paramedic Joseph Stone on April 23rd. Mr. Stone, of 
Arizona, age 36, was killed while serving his country as a 
member of the OSCE Special Monitoring Mission in Ukraine when 
his vehicle struck an explosive, likely a landmine, in 
separatist-controlled territory, an event that also injured two 
other monitors. This is the first time in history of the OSCE 
that a mission member has been killed in the line of duty.
    And make no mistake, Mr. Stone's death was directly related 
to Russia's aggression toward its neighbors. Had Russia not 
invaded Ukraine, and had it lived up to the Minsk Agreement and 
ceased supporting, directing, funding and fueling separatists 
in this region, there would have been no need for the 
monitoring mission to continue. So I once again extend my 
condolences to Mr. Stone's family, including his son, and his 
many friends. I want to take this opportunity to call for an 
end to the harassment faced by these brave monitors on a daily 
basis. And I urge all sides to provide the observers with 
unfettered access. We have put a photograph to my right, over 
my shoulder, of OSCE monitors as a reminder of the continuing 
challenges faced by these brave monitors as they carry out 
their extremely important mission.
    Our hearing today will have three objectives. First, 
examine Russia's undermining of European security, the OSCE and 
its arms control agreements and commitments. Secondly, assess 
whether it will be possible to move Russia back toward 
compliance. And third and finally, explore how we can maximize 
the value of our agreements in the OSCE as a whole going 
forward.
    I'm grateful to the members of our distinguished panel for 
their willingness to provide expert views on these topics. And 
I look forward to our discussion today. We'll first hear from 
Dr. Michael Carpenter, now a senior director at the Biden 
Center for Diplomacy and Global Engagement at the University of 
Pennsylvania. Next we will hear from Stephen Rademaker, who has 
previously testified on a number of occasions before our 
Commission. Mr. Rademaker is a former assistant secretary of 
state who headed three bureaus in the State Department. And 
thirdly, we will welcome back Ambassador Steven Pifer, who has 
appeared before the Commission previously. The ambassador 
currently serves as the director of the Arms Control and 
Nonproliferation Initiative at the Brookings Institution.
    We're joined by my friend, Congressman Chris Smith of New 
Jersey. Congressman, would you have some opening remarks before 
we hear our testimony?

HON. CHRISTOPHER H. SMITH, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. I do. Thank you very much. Thank you for 
convening this very important hearing to examine Russian 
military aggression in the OSCE region. Russia today stands in 
violation of the central commitments of the Helsinki Final Act. 
These commitments include respect for the territorial integrity 
of states, fundamental freedoms, and the fulfillment in good 
faith of obligations under international law. In violating 
these commitments, Russia is threatening the foundations of 
European security and recklessly endangering the lives of 
millions.
    One such victim, that you just mentioned so well, is Joseph 
Stone, the 36-year-old American medic who was killed by a 
landmine while on patrol in separatist-controlled eastern 
Ukraine with the OSCE's Special Monitoring Mission. And he lost 
his life on April 23rd. If it wasn't for Russia's aggression, 
and the plethora of challenges that they faced from the 
beginning of that deployment, there would have been no death of 
that wonderful young man, Joseph Stone, and so many others--
about 10,000 lives that have been lost in this conflict.
    Russian aggression is not a localized phenomenon. It 
threatens the entire region. Moscow has seized sovereign 
territory by force, threatened to use tactical nuclear weapons 
against other countries, harassed U.S. and allied military 
assets, and abandoned key transparency measures and 
commitments. These actions are unacceptable. In the face of 
such provocations, the United States must leave no doubt that 
we stand behind our Eastern European and Baltic allies. There 
is no time to waste. We must ensure the confidence of our 
friends at this critical juncture.
    One way to do this is to continue building a credible 
conventional deterrent to Russian aggression alongside our 
allies, in particular Poland and the Baltic States. I and many 
others have consistently supported robust funding for the 
European Reassurance Initiative. With the support of this 
initiative, since 2014 NATO members have held over 1,000 
military exercises in Europe. ERI has allowed the U.S. to 
participate more extensively in such exercises and increase its 
deployment of soldiers and military assets in allied countries.
    Furthermore, it has also helped us to build the capacity of 
our partners and generally make our commitment to European 
security felt. These kinds of activities must be sustained and 
expanded to ensure that we are ready to counter any threat at 
any time. This hearing will give us an opportunity to learn 
what more the U.S. can do on this front, both bilaterally and 
within NATO.
    In particular, I look forward to Dr. Carpenter's testimony 
about the extent of the challenge posed by Russian aggression 
in the OSCE region; Secretary Rademaker's thoughts about the 
implications of Russia's flouting of its arms control and 
transparency commitments; and Ambassador Pifer's perspective on 
developments in Ukraine and what they mean for the region. 
Again, thank you, Chairman, for convening this important 
hearing.
    Mr. Wicker. Thank you very much.
    And welcome to all of our guests today. We'll begin with 
the testimony of Dr. Carpenter. Thank you, sir.

 DR. MICHAEL CARPENTER, SENIOR DIRECTOR, PENN BIDEN CENTER FOR 
                DIPLOMACY AND GLOBAL ENGAGEMENT

    Dr. Carpenter. Chairman Wicker, Co-Chairman Smith, 
Commissioner Whitehouse, thank you for this opportunity to 
speak to you today about the Russian military threat to Europe. 
There is no question that the Putin regime today poses the 
greatest threat to the security of Europe, and to the United 
States. Over the last decade, the Kremlin has twice used 
military force to violate borders and occupy other countries' 
territory. It has breached arms control agreements, such as the 
CFE, INF and Open Skies Treaties. It has undermined 
transparency and confidence-building measures, like the Vienna 
Document. And it signs political agreements that it never 
intends to honor, such as the 2008 Georgia ceasefire and the 
Minsk Agreements on Ukraine.
    One of the chief drivers of Russia's aggression, and its 
deliberate violation of international agreements, is its desire 
to roll back Western influence in the post-Soviet region by 
subverting the foundations of Western democracy and undermining 
NATO and the EU. In the non-NATO countries, Russia has proven 
it is willing to use military force to achieve its aims. In 
NATO countries, it is turning to asymmetric tactics, such as 
cyberattacks, covert subversion operations, and information 
warfare. In either case, denial and deception, 
unpredictability, and non-transparency maximize Russia's 
advantages. Nuclear threats and dangerous military activities 
are also meant to send a deliberate message to the West to stay 
out of Russia's neighborhood.
    In other words, Russia's dangerous and unpredictable 
behavior is part of a deliberate strategy. Whereas Russian 
foreign policy for much of the last 25 years was based on 
cooperating with the West where possible and competing only 
where necessary, now Russia is engaged in a full-blown 
competition short of conflict across all domains all the time. 
That is why is not the time to negotiate new European security 
arrangements or agreements with Russia. Expanding channels of 
crisis communication is important and necessary. The 
administration should also consider a new round of bilateral 
strategic stability talks to clear up faulty assumptions that 
could lead to miscalculation. But in general, we have to 
understand that Russia is no longer interested in cooperation 
to strengthen European security--just the opposite.
    Our goal, therefore, should be to continue to bolster 
defense and deterrence in Europe. The U.S. should consider 
suspending its compliance with the NATO-Russian Founding Act so 
long as Russia continues to violate its basic principles. This 
would allow the U.S. to permanently deploy an additional 
brigade combat team to Eastern Europe as a deterrent force, a 
step that could be reversed if and when Russia's aggressive 
posture in the region changes.
    The United States should also employ the legal principle of 
countermeasures to respond to Russia's violations of the Open 
Skies and INF treaties. Just as Russia denies access to part of 
its territory under the Open Skies Treaty, the United States 
should restrict Russian access to U.S. territory until Moscow 
returns to compliance. The same is true of the INF treaty. The 
United States should immediately begin research, which is 
legally permitted by the treaty, into the development of an 
intermediate-range missile that would match Russia's new 
capability. And the Pentagon should be tasked with implementing 
more robust defensive measures to deny Russia an advantage in 
the meantime.
    With regards to Ukraine, Congress should encourage the 
administration to lift the existing de facto arms embargo and 
provide defensive armaments such as air defense, anti-tank and 
counter-
artillery capabilities. The United States must also get off the 
sidelines and join France and Germany in the Normandy Group 
negotiations to develop a road map with concrete timelines for 
implementing the steps laid out in the Minsk Agreements. It is 
clear that Russia is not going to honor its commitments until 
greater leverage is applied.
    One option is to inform Russia that sanctions on Russian 
banks will go into effect if Russia fails to honor specific 
deadlines for implementing the Minsk road map. The U.S. can do 
this unilaterally since, unlike sanctions on the defense or 
energy sectors, financial sanctions can be highly effective 
even if the EU does not match them. The administration should 
also consider developing the mandate for an armed U.N. mission 
for eastern Ukraine.
    In response to the cyberattacks and information warfare 
that the Kremlin has perpetrated against the U.S. and our 
European allies, the U.S. should invest significantly more 
resources in cyber defense. And Congress should legislate a 
common set of cyber defense standards for the private sector 
companies that control our critical infrastructure. We are way 
behind the curve on this.
    Finally, we must immediately appoint an independent special 
prosecutor to determine whether or not there was collusion or 
cooperation between the Russian Government and Trump campaign 
representatives in the last election cycle. Congress must also 
establish a select committee to look at the broader question of 
Russian interference in the U.S. electoral process and Russia's 
ability to undermine our institutions and infrastructure.
    Chairman Wicker, Co-Chairman Smith, members of the 
Commission, the United States has an obligation to enhance 
deterrence and build resilience against Russian aggression and 
malign influence across the OSCE region. It starts here at 
home, by responding forcefully to Russia's subversive actions. 
We must also push back on Russia's violations of arms control 
and confidence-building agreements. And finally, we must apply 
greater leverage against Moscow, and strengthen Ukraine's 
defenses. If we do not check Russian aggression with more 
forceful measures now, we will end up dealing with many more 
crises and conflicts, spending billions of dollars more on the 
defense of our European allies, and potentially seeing our 
vision of a Europe whole and free undermined. Thank you and I 
look forward to your questions.
    Mr. Wicker. Thank you, Dr. Carpenter.
    Mr. Rademaker.

        MR. STEPHEN RADEMAKER, PRINCIPAL, PODESTA GROUP

    Mr. Rademaker. Thank you, Chairman Wicker, Co-Chairman 
Smith, Commissioner Whitehouse. Thank you for the invitation to 
testify today. Let me say at the outset that I work at a 
government relations firm in Washington. We have a number of 
clients. I'm not here on behalf of any of my clients. I'm here 
on behalf of myself. I was asked to present my personal views, 
and that's what I'm doing here.
    I was asked to assess Russia's compliance with the various 
arms control agreements that Chairman Wicker outlined in his 
opening statement. I have prepared a lengthy written statement. 
I will summarize the written statement and then come to my 
conclusions.
    The first treaty I was asked to evaluate in terms of 
Russia's compliance was the CFE Treaty, Conventional Armed 
Forces in Europe Treaty, that was concluded in 1990. This was a 
very important treaty. The conventional military imbalance in 
Europe, the advantage that the Soviet Union and the Warsaw Pact 
had during the Cold War was the driver of the nuclear arms race 
for much of the last century. And with the achievement of the 
Conventional Armed Forces in Europe Treaty, the imbalance was 
corrected, and it became possible to negotiate deep reductions 
in nuclear force levels. And so this was a very important 
treaty at the time it was concluded.
    Regrettably, in 2007 President Putin ordered what he called 
a suspension of Russian implementation of the treaty. Now, this 
is not something that the United States or any of our allies 
consider to be a legally permissible step on their part. It's 
essentially breach of the treaty by Russia. We have continued 
to try to implement the treaty to the extent we can. But in 
2011, we and our allies concluded that Russia was determined 
not to comply. And so we have stopped requesting inspections 
and expecting data declaration by Russia pursuant to the 
treaty, although among ourselves we continue to abide by the 
CFE Treaty. And technically we hold that it's still in force.
    The reason that Russia essentially pulled out of the CFE 
Treaty in 2007 was because for a long time Russia had become 
increasingly unhappy with the way that the treaty applied to 
them. Russia was especially unhappy with what are called the 
flank limits of the treaty, which limited military deployments 
on Russia's periphery. They believed that those limits 
interfered with their ability to prosecute the war they were 
waging in Chechnya, for example.
    They were also very unhappy that the treaty was being used 
by Georgia and Moldova to try and compel Russia to withdraw its 
armed forces from their territory. Those armed forces remain 
present in those two countries without the consent of the two 
governments. And that is a violation of the CFE Treaty. Those 
countries, with our support, were pressing Russia to withdraw 
those forces, and to eliminate the equipment that Russia had 
deployed in those countries. For all of these reasons, Russia 
reached the conclusion in 2007 that this treaty no longer 
served their interests. And as I indicated, President Putin 
suspended Russian implementation 
of it.
    The second treaty I was asked to look at was the Open Skies 
Treaty. This unarmed aerial observation treaty is a confidence-
building measure. There are 34 parties to it among the OSCE 
countries. Russia continues to implement the Open Skies Treaty, 
but it does so in a way to minimize the benefits of the treaty 
to other parties, such as the United States.
    Perhaps the best illustration of that is the Kaliningrad 
Oblast, which is that part of Russia that's sandwiched between 
Poland and Lithuania. It doesn't border the rest of Russia. 
Obviously, it's a very sensitive piece of territory. It's 
subject to aerial observation under the Open Skies Treaty. 
Russia has adopted, unilaterally, restrictions on the 
overflights that would be conducted for surveillance purposes. 
The effect of these restrictions--they limit the distance of 
the flights out of the relevant airfield in Russia. The effect 
of that restriction is not to prevent us from doing aerial 
observation of Kaliningrad, but it requires us to use multiple 
flights to completely observe the territory of the Kaliningrad 
Oblast. So it's essentially a nuisance restriction designed to 
make it harder for us to achieve the benefits under the treaty 
to which we and our allies are entitled.
    They've adopted a number of other measures--minimum 
altitude restrictions that limit observation over Moscow. 
They've previously applied that same restriction over Chechnya. 
They ended that last year. But again, they were trying to 
minimize the benefits of this treaty to us with respect to 
Chechnya. They do not allow flights adjacent to Abkhazia and 
South Ossetia, those two regions of Georgia. And then in the 
case of Ukraine they've adopted a nuisance restriction. They 
require Ukraine to make payment in advance before Ukraine can 
conduct overflights over Russian territory. This is 
inconsistent with the provisions of the treaty. And the 
consequence has been that Ukraine has not conducted any 
overflights of Russia since that policy was adopted. So Russia 
implements the treaty, but it does so in a way designed to 
defeat some of the purposes of the treaty.
    Similarly, I was asked to look at the Vienna Document, 
which is what's called a CSBM, a confidence and security-
building measure about force levels in Europe. And Russia has 
implemented it in a very similar manner to the way that it has 
implemented the Open Skies Treaty. They comply with it, but in 
a way that minimizes the benefits. The State Department's 
annual arms control compliance report, which it issued just 
last month, said the following, which I think said it all about 
Russian compliance with the Vienna Document. The State 
Department said: ``The United States assesses that the Russian 
Federation's . . . selective implementation of certain 
provisions of the Vienna Document, and the resultant loss of 
transparency about Russian military activities has limited the 
effectiveness of the CSBM's regime. Russia's selective 
implementation also raises concern as to Russia's adherence to 
the Vienna Document.''
    As with Open Skies, there are a number of examples of 
things they've done to not fully implement their obligations 
under the treaty. Perhaps the best illustration or the best 
example is with regard to advanced notification of military 
exercises. A pattern has emerged where Russia either provides 
no advanced notification or notifies that there will be a 
limited exercise, and then when the exercise takes places it 
turns out to be a much larger exercise. They put forward legal 
explanations for this. Sometimes they claim that, you know, 
these were just snap exercises, or they claim that these were 
multiple exercises under separate command and therefore they 
didn't have to be notified as one exercise. But considering the 
pattern, these are sort of legalisms, and they really reveal a 
pattern of attempting to minimize their compliance with their 
commitments under the Vienna Document.
    Finally, I looked at the INF Treaty, a very important 
treaty that limited intermediate-range missiles in the United 
States and Russia, where both countries are prohibited to have 
these missiles. Under the Obama Administration, it was 
determined that Russia was testing a missile that was not 
compliant with the INF Treaty. More recently, it's been 
reported in the press that Russia has moved from testing that 
missile to actually deploying it. And it's supposed to be 
operationally deployed with two Russian battalions.
    Both the Obama Administration and the Trump Administration 
have tried to have a dialogue with Russia about this to 
persuade them to correct the violation. It's a very sterile 
dialogue, because the Russian side essentially says, we have no 
idea what you're talking about. There is no such missile. We've 
never tested such a missile. The U.S. government has presented 
details about the location of--you know, geographic coordinates 
of tests, the dates of tests. The Russians throw up their hands 
and say, we have no idea what you're talking about. There was 
no such test.
    So there's not even really a willingness on the part of the 
Russians to engage in a dialogue about returning to compliance. 
The underlying issue here, I believe, is that, as with the CFE 
Treaty, Russia concluded some time ago that the INF Treaty no 
longer serves its interests. I think they consider it's an 
unfair treaty because it prohibits them, and us, to have 
intermediate-range ballistic missiles and cruise missiles. But 
it doesn't impose such a restriction on some of Russia's 
neighbors--like China, Iran, Pakistan, North Korea. And those 
countries are deploying missiles of those ranges. So from 
Russia's point of view this is unfair to them. And for a long 
time, they've expressed interest in trying to get out from 
under the treaty. I think their steps to simply deploy a 
missile that violates the treaty is consistent with their view 
that they need to somehow sidestep the restrictions of the 
treaty.
    So my conclusion is that, looking at the overall pattern of 
Russian compliance with their arms control agreements, that 
Russia will comply with them to the degree that Russia judges 
that they serve Russia's interests. But to the degree Russia 
concludes that these treaties and transparency measures no 
longer serve its interests, it will either seek to terminate 
them, as it did with the CFE Treaty; it will violate them, 
while continuing to pay lip service to them, as it's doing with 
the INF Treaty; or it will selectively implement them, as it is 
doing with the Open Skies and Vienna Document agreements.
    So what's the underlying issue here, both with respect to 
arms control and some of the other activity we see in Ukraine, 
for example? What I suggest in my concluding remarks in my 
testimony is that, regrettably, Russia sees security in Europe 
as a zero-sum game. And it thinks the best way to enhance its 
security is by diminishing the security of its neighbors. And 
that, of course, is completely inconsistent with the OSCE 
principles and the principles that underlie all of these arms 
control and transparency agreements. Because the principle that 
underlies them is quite the opposite, that security in Europe 
is a positive-sum game, that all countries will be more secure 
to the extent their neighbors are more 
secure.
    I think the evidence we have, of course, is that Russia 
just takes a different view of that, and thinks its security is 
enhanced if a country like Ukraine's security has been 
diminished. And I think until we can change that fundamental 
mindset--and I don't know that we can change that fundamental 
mindset. It may just be a matter of time and experience that 
gets us to a different place with Russia. But until Russia 
stops thinking of the European Union as a threat, and NATO as a 
threat, and strong and stable neighbors as a threat, and rather 
sees that as a net positive for their own security, I think we 
will continue to see these problems in compliance with arms 
control treaties and similar problems that we have in other 
areas.
    Thank you.
    Mr. Wicker. Thank you, Mr. Rademaker.
    Ambassador Pifer.

   AMB. STEVEN PIFER, SENIOR FELLOW AND DIRECTOR OF THE ARMS 
    CONTROL AND NON-PROLIFERATION INITIATIVE, THE BROOKINGS 
                          INSTITUTION

    Amb. Pifer. Mr. Chairman, Co-Chairman Smith, members of the 
Commission, thank you for the opportunity to appear today to 
testify on the Russian military threat in Europe and how that 
threat has manifested itself in Ukraine. I will summarize my 
statement for the record.
    Russian actions towards Ukraine have grossly violated 
fundamental principles of the Helsinki Final Act, including the 
commitment of the participating states to respect each other's 
sovereignty, territorial integrity and independence, and to 
refrain from the threat or use of force. It is useful to 
understand Russian end goals as regards Europe and Ukraine. 
Moscow seeks a sphere of influence in the post-Soviet space. It 
wants to weaken NATO and the European Union.
    President Putin and the Kremlin, moreover, appear to fear 
the prospect of a modern, successful democratic Ukrainian 
state. The fear is that that kind of Ukraine could prompt 
Russians to question why they cannot have a more democratic 
system of governance.
    In February 2014, after then-President Yanukovych fled 
Kiev, Ukraine's Parliament appointed an acting president and an 
acting prime minister who made it clear that Ukraine's number 
one foreign policy goal was to draw closer to the European 
Union. The Kremlin apparently concluded that it lacked the soft 
power tools to prevent that. Shortly thereafter, the Russian 
military seized Crimea. Within days, following a sham 
referendum, Russia annexed Crimea. In April 2014, Russia began 
assisting armed separatism in the eastern Ukraine region of the 
Donbas, providing leadership, financing, ammunition, heavy 
weapons, other supplies, and, when necessary, regular units of 
the Russian army.
    Three years of fighting, despite the Minsk II Agreement 
worked out in February of 2015, have resulted in nearly 10,000 
dead. Unfortunately, the ceasefire and withdrawal of heavy 
weapons from the line of contact that were called for under the 
Minsk II Agreement have not been implemented. While Moscow 
implausibly denies involvement in the Donbas, NATO and 
Ukrainian officials believe that Russian military officers 
continue to provide command and control, training and advising 
for forces there. The Kremlin is not pursuing a settlement of 
the conflict, but instead seeks to use a simmering conflict as 
a means to pressure and destabilize the government in Kiev.
    The Organization for Security and Cooperation in Europe has 
played an important role in trying to find a solution to the 
conflict, chairing a trilateral contact group that brings 
together Ukrainian and Russian officials, as well as 
representatives of the occupied part of the Donbas. OSCE also 
has a special monitoring mission on the ground in Ukraine, with 
some 700 monitors, many of them who are observing the 
implementation or non-implementation of the Minsk II ceasefire 
and withdrawal provisions. And it was that mission that Mr. 
Joseph Stone was a part of.
    What is needed to bring peace, however, is a change in the 
Kremlin's policy. The United States and the West should support 
Kiev politically and, provided that the Ukrainian Government 
more effectively implements economic reforms and anticorruption 
measures, give Ukraine additional economic assistance. The 
United States should continue to provide military support, and 
that should include certain types of lethal assistance such as 
man-portable anti-armor weapons. The United States and the 
European Union should continue to put political and economic 
pressure on the Kremlin. That means keeping in place the 
economic and other sanctions on Russia. And the West should 
consider applying additional sanctions.
    In addition, it is important that the administration and 
NATO continue the steps agreed at least year's NATO summit in 
Warsaw, to enhance the alliance's conventional deterrence and 
defense capabilities in the Baltic region and Central Europe. 
Such steps will lead to more secure European allies who will be 
more confident in supporting Ukraine. The United States should 
also continue to support the German and French efforts to 
promote a solution to the Ukraine-Russia conflict. It is very 
difficult to see Minsk II succeeding, but it is the only 
process on the table.
    At the end of the day, Ukraine needs a settlement which has 
Russian buy-in. Otherwise, Moscow has too many levers that it 
can use to make life difficult for Kiev, and thereby deny 
Ukraine a return to normalcy.
    Finally, it is all but impossible to imagine Russia 
agreeing to return Crimea. At present, Kiev lacks the leverage 
to change that. The United States and the West, however, should 
not accept this. They should continue a policy of non-
recognition of Crimea's illegal annexation, and continue to 
apply sanctions related to the peninsula.
    Mr. Chairman, Co-Chairman Smith, members of the Commission, 
over the past three years Russia has employed military force to 
seize Crimea, and sustain a bloody armed conflict in the Donbas 
in pursuit of the Kremlin's goal of asserting a sphere of 
influence and frustrating the ability of Ukraine to succeed. 
These Russian actions are in stark violation of Moscow's 
commitments under the Helsinki Final Act and other agreements. 
These actions endanger peace and stability in Europe. They 
raise concern that the Kremlin might be tempted to use military 
force elsewhere.
    The United States should work with its European partners to 
respond in a serious way. That will require a sustained and 
patient effort, but it is essential if we wish to see the kind 
of Europe that was envisaged when the Final Act was signed in 
1975. Thank you for your attention.
    Mr. Wicker. Ambassador, you say that the Minsk II Agreement 
is not likely to be abided by, but it's all we've got. Dr. 
Carpenter suggests that any type of an agreement--new agreement 
or negotiation with Russia is pointless. Help us understand, is 
there daylight between the two of you there? I'll start with 
Dr. Carpenter first.
    Dr. Carpenter. I'm not sure, Senator, that there's all that 
much disagreement between Steve and myself. I agree that Minsk 
provides right now the only road map that is bought into by all 
the parties that are concerned, including France and Germany, 
with this conflict. My point simply is that Minsk--and this is 
where I agree with Steve--will never be implemented until we 
apply greater leverage on Russia.
    So until Russia feels there are consequences, and until we 
identify concrete timelines under which the various steps that 
are laid out in the Minsk II Agreement, the February 15 
agreement--unless there are timelines and consequences for 
failing to meet those timelines, Russia will continue to engage 
in these Kabuki negotiations with the French and Germans, which 
are, frankly, going nowhere.
    Mr. Wicker. Mr. Ambassador?
    Amb. Pifer. I would agree. The first problem in 
implementing Minsk is that the Russians do not want it to be 
implemented. There is no doubt in my mind that with Russian 
control of their forces, but also over separatist forces in the 
occupied parts of Donetsk and Luhansk, if Russia wanted to 
deliver a ceasefire and withdraw the forces from the line of 
contact and allow the OSCE monitors full access, those are the 
first three provisions of Minsk II. The Russians could make 
that happen. It hasn't happened now in two years and two months 
because the Russians do not want it to happen.
    There's an additional problem, though, and this is why I 
think we need to have a sense of urgency about Minsk. The 
longer that we go since the year 2015, it becomes harder, I 
believe, for the Ukrainian Government to implement some of the 
political provisions, such as passing a constitutional 
amendment on decentralization, or passing a special status law, 
because you have public attitudes and attitudes within the 
Rada, Ukraine's Parliament, which are hardening, because over 
two years they see more and more Ukrainian dead. But Minsk II, 
right now it's the only process. We need to do what we can to 
push it. But it's going to require pressure on Russia to change 
the Kremlin's calculation.
    Mr. Wicker. Mr. Ambassador, you mentioned success in 
Ukraine. Would you and Dr. Carpenter help us by defining 
success? And isn't that success one of the most important 
foreign policy achievements we could assist with?
    Amb. Pifer. I believe a successful Ukraine is important for 
the kind of Europe that we want to see--that's a Europe that's 
stable, secure and at peace. It is going to be a problem that 
the United States Government cannot ignore if you have a 
failing Ukrainian state on the border of institutional Europe. 
That's going to be a problem that is going to be something that 
we will have to deal with. On the other hand, if you could see 
a successful Ukraine--and by success, I mean, a normal 
democracy, a growing market economy, a country that 
increasingly looks like, say, Poland, its neighbor to the West, 
that would be success.
    The problem that the Ukrainians have is the Russians, I 
believe, fear that kind of success, because they worry that the 
Russian population will say, well, wait, the Ukrainians, who 
the Russians see as probably the closest of the post-Soviet 
peoples--the Russians start asking, how come the Ukrainians can 
have a democracy or they can vote, or they have a political 
voice and we can't? That disturbs the Kremlin.
    Mr. Wicker. But, Dr. Carpenter, in spite of all of the 
problems, if we saw that success, it would be a major 
achievement for the West, would it not?
    Dr. Carpenter. I agree, Senator, that Ukraine is pivotal to 
the future of European security. And if the Kremlin looks 10 
years from now on its military intervention--violating borders 
and annexing territory, occupying another chunk of territory--
as a success on its part, then that will just fan the flames of 
Russian ambition, revanchism across the whole region, and we 
will continue to deal with these sorts of crises in the future. 
So I think strengthening Ukraine's sovereignty through 
empowering its reformers, but also hardening its defenses, is 
absolutely vital.
    And just one other point on this. I think Russia would be 
happy to settle the conflict peacefully. But what Russia's 
vision of the Minsk II settlement looks like is where you 
create an analogous situation to Republika Srpska in Bosnia for 
the Donbas. In other words, they have a veto over foreign 
policy. They can, in fact, veto a lot of other policies that 
pertain to the national state. And that would give Moscow 
leverage to prevent Ukraine from moving towards NATO or the EU 
for the indefinite future. But that is not success for us. For 
us, success has to be a sovereign, independent Ukraine that 
develops on its own trajectory, and hopefully one that is 
increasingly democratic.
    Mr. Wicker. The Republika Srpska example is certain one 
that we would want to avoid.
    We'll continue with six-minute rounds. Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me just say, thank you very much, all three of our 
distinguished witnesses, for their very incisive comments. It 
really does help this Commission, and I think by extension both 
the House and the Senate, to have the benefit of your insights. 
So thank you so very, very much.
    Let me just ask, Mr. Ambassador, you pointed out in your 
testimony that it's important that the United States continue 
to provide military assistance. You make the point that in 
particular man-portable anti-armor weapons, to increase 
Ukrainians' ability to deal with the influx of Russian armor in 
the Donbas, is one of the points that you underscore. And my 
question would be from the beginning--because, you know, many 
of us have been frustrated almost to tears in our inability for 
years to provide the kind of deterrence capability to the 
Ukrainians to end the fighting. Without a credible threat of 
deterrence--as Poroshenko told us in a joint session of 
Congress, you can't fight a war with blankets. Blankets are 
important. Medicine is important. But you've got to have 
deterrence. Have we done enough in the years to date? And is 
there any sense that you have that we are now looking at a 
pivot where we will now give them the capabilities to deter so 
that negotiations can be successfully concluded?
    Amb. Pifer. Well, yes, sir. I think that's an excellent 
question. I do not believe the United States has provided what 
it could to Ukraine. I was in Kiev and also at the Ukrainian 
field headquarters in Kramatorsk in Donetsk about two years 
ago, along with one of my successors, Ambassador John Herbst, 
and also retired General Chuck Wald, who'd been the deputy 
commander of the U.S. forces in Europe. And what we heard from 
the Ukrainians at Kramatorsk was that some of the non-lethal 
assistance was very useful in terms of, for example, counter-
battery radars. But they pointed out that their stocks of 
Soviet-era man-portable anti-tank weapons just didn't work. So 
that was a huge need. And they cited that in view of increasing 
armor that they saw the Russians bringing in to equip 
separatist forces in the Donbas. So I think that would be a 
very important need.
    I would also make the point that I believe that all three 
of us came away from our conversations both in Kiev and 
Kramatorsk believing the Ukrainian army understands they cannot 
beat the Russian army. They're not talking about give us 
weapons to drive the Russians out of Donbas. What they want is, 
they want weapons that allow them to raise the cost to the 
Russians of further aggression, to take away easy military 
options--which I believe is in our interest in terms of 
steering the Kremlin away from military solutions towards a 
genuine political settlement.
    Mr. Smith. Let me ask Mr. Rademaker, with regards to arms 
control, is there any penalty for Russia's violations of its 
commitments, solemnly entered into and at the time we thought 
faithfully entered into? And have the Iranians, close friends 
and allies of Russia, gleaned any lessons? Because I'm one of 
those who believes--and I'm not alone; there's Democrats and 
Republicans who believe the Iranian deal was egregiously 
flawed, and we believe it's already, with regards to ballistic 
missiles, when they kept that out of the treaty--or it's not 
even a treaty, the executive agreement--will violate with 
impunity at the time and place of their of their choosing. I'm 
talking about Tehran now. But did they learn something from the 
Russians? And, again, is there any penalty for violating any of 
these arms control treaties?
    Mr. Rademaker. Thank you, Co-Chairman Smith. Your question 
really goes to the issue of the limits of arms control. Arms 
control is a consensual process. Countries sign arms control 
agreements because they decide it's in their interest to do so. 
But treaties, agreements, they're governed by international 
law. And under international law, treaties can be terminated. 
And that's important, actually, for getting countries to sign 
treaties in the first place, because if it were seen as an 
irrevocable step, lots of countries would hold off signing 
treaties. So we have to take the good with the bad. The fact 
that countries who sign arms control agreements know that they 
can get out of them is part of what contributes to their 
willingness to enter into the process.
    But it also means that countries who over time conclude 
that a treaty is no longer serving their interest have the 
legal option of getting out from under it. I think President 
Putin would consider that that's what he did in the case of the 
CFE Treaty, with this suspension of Russian implementation. 
They didn't formally terminate Russian participation, but 
they've suspended it. The effect is essentially the same. You 
know, Russia's no longer complying. If we really push the 
issue--the legal issue, I guess what we end up with is a notice 
of termination and a notice of withdrawal from the treaty by 
Russia. I think there's still some hope that maybe Russia will 
have a change of heart. They've never been really pushed on the 
question of, well, why don't you just terminate the treaty, 
rather than suspend your implementation.
    In the case of INF, I think the Russian position is that 
they're complying with the treaty, and that these allegations 
that they have tested and now deployed a non-compliant cruise 
missile are fantasy--fake news, I think is what they would say 
about that. The U.S., I believe, is pretty confident in its 
intelligence information about these tests. There's a mechanism 
for dialogue under the treaty, where the parties of the treaty 
can come together and talk about compliance issues.
    But it's not like we can take them to court--there's no 
panel out there to adjudicate disagreements. We have the option 
of terminating the treaty. I think some are wondering whether 
we should do that. I personally do not favor termination of the 
INF Treaty, because I think that would actually be a gift to 
Russia. I think Russia would like us to terminate the treaty. 
And I think we ought to be looking at ways to punish them for 
cheating, not doing things that they would consider a reward 
for cheating on the 
treaty.
    Dr. Carpenter laid out some ideas about what we should be 
doing in a case like the INF Treaty. I think taking steps to 
show that we are prepared to respond, that we will potentially 
develop and, if necessary, deploy our own missiles that 
correspond to the ones that they're deploying, looking at 
enhancements in our missile defense capabilities to counter the 
illegal missiles that are being deployed on the Russian side. 
Those kinds of steps are perfectly appropriate and those are 
the things that we should be doing. But at the end of the day, 
we can take reciprocal steps in response to what they do, but 
if we really push the issue then they can withdraw from these 
treaties.
    As far as the lessons that Iran could take from that--in 
other venues I've testified in opposition to the Iran nuclear 
deal for some of the reasons you alluded to in your question. I 
think it's too good a deal for Iran over the long term. It 
enables them to achieve nuclear weapons threshold capability 
and then, at a time and place of their choosing, they can 
deploy nuclear weapons. Now, that's prohibited under the 
Nuclear Nonproliferation Treaty. But, you know, North Korea was 
part of the Nuclear Nonproliferation Treaty until they decided 
they didn't want to be anymore. And now they have nuclear 
weapons. So I think there's a takeaway for the Iranians from 
that experience.
    Mr. Wicker. Thank you, Congressman Smith.
    Senator Whitehouse.

 HON. SHELDON WHITEHOUSE, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Whitehouse. Thank you, Chairman.
    Dr. Carpenter mentioned the array of non-kinetic tools that 
Russia uses--cyberattacks, covert political subversion and 
information warfare, and described Russia's intensity on them 
as all domains, all the time. The CSIS Kremlin playbook looks 
at this same pattern of activity and draws what I think is a 
very reasonable conclusion, which is that corruption is at the 
heart of all of those techniques and is ultimately the enabler 
of a great many of those techniques, which causes me to wonder 
whether we have done enough as the United States of America to 
take on the vast international infrastructure of corruption 
enablement that the Panama Papers gave us one little window 
into.
    But it's a much broader world of people who are paid a lot 
of money--lawyers, accountants, and others--to take care of 
kleptocrats, hide their money, allow super-wealthy people to 
dodge taxes, and, of course, enable corruption. It seems to me 
that with the EU cleaning up its incorporation transparency, 
America now looks to be the last bastion of shell corporations 
and that that is a significant vulnerability against this 
larger context. And to the extent that our political money is 
not transparent at all, that's a vector for foreign influence 
as well as whatever special interests now take advantage of the 
dark money operations.
    I guess my question is, from zero to 100--with zero being 
we're doing nothing and 100 being we've really got this--how 
far along the spectrum do you all feel we are in terms of 
knocking down the infrastructure of corruption enablement and 
closing up the vectors of corruption that the United States 
presents?
    Dr. Carpenter. Thank you for that question, Senator. I 
completely agree that the name of the game right now for Moscow 
is the weaponization of corruption to be able to subvert 
Western societies and Western liberal democracies. In terms of 
where we are on the spectrum----
    Mr. Whitehouse. And just to jump in one point on that--but 
please continue--but these non-rule-of-law corrupt countries 
actually need rule of law when it comes to hiding their assets, 
because if they leave them in Russia they'll get scooped by 
Putin or the next bigger thug that comes down the road. So 
they're in an interesting balance where they actually depend on 
rule-of-law countries to enable their corruption even though 
they are operating outside of rule of law, I believe.
    Dr. Carpenter. I think that's absolutely right. I think 
that in terms of where we are on the spectrum, I think we're in 
the single digits. We're just beginning to come to terms with 
the threat and how it's manifested. Russia's using a variety of 
different tools. It's using our media freedom to sow 
disinformation through various Russian outlets, but also 
through social media bots and trolls. It's using political 
pluralism to be able to covertly fund parties, candidates, 
think tanks, NGOs. We see this across Europe. And then it's 
using also oligarchs and business ties to be able to subvert 
and corrupt economic interests in foreign countries that can 
then be used to lobby for political outcomes. So it's across 
the board.
    I think, for us, Citizens United allows for a vast amount 
of money to flow into our party financing system with very 
little transparency and accountability. And clearly, Russia--
perhaps other states as well--have taken advantage of that. I 
would recommend the creation, actually, of an interagency 
taskforce between law enforcement, between the intelligence 
community, the State Department and the Pentagon to look at how 
to root out Russian organized crime networks, and also these 
organized crime networks are also usually coterminous with some 
of these corrupt influence operations.
    Mr. Whitehouse. My time has pretty well run out, but if I 
could get the other two witnesses to give me a number on that 
zero to 100. Michael thinks we're in single digits on those 
fronts.
    Amb. Pifer. Way below where we should be. I can't quantify 
it. But when I was in Ukraine----
    Mr. Whitehouse. Way below. And--I don't want to go into my 
colleagues' time. Mr. Rademaker.
    Mr. Rademaker. I'll agree with Ambassador Pifer. Way below 
where we should be.
    Mr. Whitehouse. OK.
    Thanks, Chairman.
    Mr. Wicker. Thank you, Senator Whitehouse.
    Senator Shaheen, and then Congressman Aderholt.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mrs. Shaheen. Well, thank you all very much for being here. 
And I want to follow up on the measures that we can take to put 
more pressure on Russia in Ukraine. You talked about lethal 
weapons as being one of those. I know that shortly--as the 
Minsk Agreement was being negotiated there was reluctance from 
the Germans and the French to provide lethal weapons. Has that 
changed? Anyone, do you know?
    Dr. Carpenter. I can start. There was reluctance from a lot 
of our West European allies to provide lethal weapons to 
Ukraine. Now, when Chancellor Merkel first raised this in 
February of 2015, when essentially the media had gotten wind of 
the fact that there was some debate here about the possibility 
of providing lethal weapons, her statement was not unequivocal. 
She said that it would not be beneficial at that moment in 
time, but it was not unequivocal.
    I personally believe there are a lot of our NATO allies, 
especially on the eastern flank of the alliance, that would 
welcome U.S. leadership in this regard and that, in fact, would 
follow suit rather quickly after we were able to provide lethal 
weapons in providing weapons of their own. And for Ukraine, 
this is actually very important because a lot of these former 
Warsaw-backed allies have non-NATO standard equipment, that is 
the type of equipment that the Ukrainian military is most used 
to using and currently employs and would benefit from, because 
their stocks have been radically depleted over the course of 
the last two and a half years of war.
    Mrs. Shaheen. Does anybody disagree with that?
    Amb. Pifer. I would just briefly second Mike's point. And 
note that when we were at NATO two years ago, we heard from 
certain allies that, yes, if the United States did that, that 
would give them political cover to also begin providing lethal 
assistance.
    Mrs. Shaheen. I would just point out that I know the Armed 
Services Committee in the Senate has taken a position--general 
the majority of us--in support of that. I'm not sure about the 
Foreign Relations Committee. But this is one area where the 
United States could exercise some leadership and add to the 
pressure on Russia.
    Sanctions is another area. Do we have any sense of whether 
the Europeans are going to support rolling over those sanctions 
again, to continue to put pressure on Russia?
    Dr. Carpenter. Senator, I would say right now there is a 
good chance that the Europeans will roll over sanctions. I 
think it would be very difficult for them to apply any 
additional sanctions above and beyond what's been applied right 
now. My suggestion for the United States to be able to apply 
greater leverage is to focus on financial sanctions because the 
defense sector and the energy sector sanctions can easily be 
backfilled by both European countries, but also by Asian--
Korea, Japan, Singapore and other countries that have expertise 
in this area. On the other hand, financial sanctions are 
primarily dependent on the U.S. dollar and the U.S. financial 
system. So we could easily crank up the financial sanctions on 
a calibrated ladder, and have great effect in terms of the 
impact on Russia's economy in the near term.
    Mrs. Shaheen. And I assume you all are probably familiar 
with the more comprehensive sanctions bill that has been 
introduced. Is that the kind of sanctions effort that you think 
would be helpful? Or are you not familiar enough with the bill 
to be able to----
    Dr. Carpenter. No, I am familiar with Senator Cardin and 
Senator Corker's collaboration on this bill.
    Mrs. Shaheen. I'm actually talking about Senator McCain and 
Senator Cardin.
    Dr. Carpenter. Oh, the McCain bill. I think it's a step in 
the right direction. It is not tied to specific benchmarks for 
implementing Minsk. I would suggest that that would be a way to 
incentivize better behavior by the Russians. But generally 
speaking, I support that bill.
    Mrs. Shaheen. Mmm hmm.
    Amb. Pifer. And I would just add, I would hope that the 
bill would also, though, would make it clear that if the 
Russians met those benchmarks that the sanctions would come 
off. I mean, that's been, I think, a problem in the past 
sometimes with Congressional sanctions, is that they go on. But 
if the Russians can't see a possibility that those sanctions 
will then come off when the Russians deliver the desired 
behavior, the sanctions lose their value as inducements to 
better behavior by the Kremlin.
    Mrs. Shaheen. And one other question; I know the Magnitsky 
legislation actually put sanctions on individuals--so prevented 
certain individuals from coming to this country. How effective 
are those kinds of efforts in addressing some of the corruption 
issues that Senator Whitehouse and you all were talking about, 
and also in trying to ratchet up pressure on Putin and his 
allies in Russia?
    Dr. Carpenter. I believe, Senator, that those sanctions are 
highly effective, and precisely for the reasons that Senator 
Whitehouse indicated, that a lot of these oligarchs have money 
stashed in Western countries. The thing about the Magnitsky 
legislation is that it has been vastly underutilized by both 
the previous administration and this administration. There are 
only a couple dozen, as far as I know, individuals that have 
been sanctioned under that legislation. And largely, it is 
targeted at a narrow group of people around Putin. If it were 
more widely applied to target those who are corrupt and who 
violate human rights within the Russian system, it would have a 
significant impact.
    Mrs. Shaheen. And don't you agree that we should also 
include the families of some of those individuals, that we 
should not allow some oligarch to corrupt countries and send 
his kids to our universities to get the best education they 
can, to go back and be part of these networks?
    Amb. Pifer. I think that would be a fantastic way to 
increase the pressure on the oligarchs. If the kids cannot go 
to the United States or Britain to go to college, and spouses 
can't travel to do their London or Paris shopping trips, that 
increases the pressure. And I think we should be looking at 
ways to put pressure on the Russians to stop what's going on in 
Eastern Ukraine.
    Mrs. Shaheen. Absolutely. Do I still have any time?
    Mr. Wicker. You'll have time later. [Laughter.] But very 
helpful suggestions. Thank you, Senator Shaheen.
    Congressman Aderholt, and then Senator Gardner.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you. I apologize for coming in a little 
late. There were a lot of meetings, as you can imagine, here in 
the middle of the week here on Capitol Hill. But I did want to 
just talk a little bit about Russia's political leadership, how 
they are appearing to build a modernization of their military, 
and of course we're getting reports of that, that they are now 
ranked right there, overtaking Saudi Arabia and now ranked 
behind U.S. and China. And I'd open this up to anybody--any of 
you on the panel here. What are the main elements of Russia's 
military modernization program that you're aware of and that 
you're seeing right now?
    Dr. Carpenter. Well, I can start. Russia's military 
modernization was launched when Putin came to power in 2000--
really, in earnest around 2005. They've had over a decade in 
which they've been at this. They have both reorganized their 
military to be more agile in terms of the structure--it's 
focused on brigades now as opposed to divisions.
    But they've invested heavily and are investing in 
modernizing their nuclear triad. They have superb, world-class 
nuclear-powered submarines that have very quiet acoustic 
signatures that are very difficult to detect by U.S. submarine 
watchers--either undersea or also in the air. They have 
developed world-class cruise missiles, as we saw, the ones that 
were fired from the Caspian Sea and the eastern Med in the 
Syrian theater. And they have exceptional cyber and electronic 
warfare capabilities, which we have seen as well in Ukraine and 
in Syria. And their air defense systems are not as good as 
ours, but they're pretty good and they're pretty powerful. So, 
across the board, they've invested significantly in military 
modernization.
    Just one caveat here. A lot has been made of their A2/AD, 
anti-access, area-denial capabilities. These are very 
sophisticated capabilities, but sometimes these are little bit 
overblown. I think the U.S. has the capability, both through 
standoff munitions--either air launched or sea launched--to 
penetrate some of the A2/AD bubbles. So, while they do have a 
significant capability there, it's perhaps been hyped up a 
little bit too much in recent months.
    Mr. Rademaker. In the case of their modernization in the 
strategic nuclear area, I think it's largely driven by Russia's 
perception that there's a conventional military imbalance in 
Europe really across their periphery, to their disadvantage. 
And so in some ways it's the mirror image of the Cold War 
situation, where we and NATO were satisfied that there was a 
conventional imbalance in favor of the Warsaw Pact and in favor 
of the Soviet Union. And we had to rely on nuclear weapons, a 
nuclear deterrent to ensure the security of Europe.
    I think since the end of the Cold War, the Russians have 
been convinced that the opposite's true, that they're at a 
conventional military disadvantage. And so their doctrine 
relies increasingly on both strategic nuclear weapons and also 
tactical nuclear weapons. And you see investments by them in 
this area that I think underscore that they believe that 
nuclear weapons really are the last guarantor of their 
security.
    Amb. Pifer. Congressman, I tend to worry less about what 
the Russians are doing in terms of strategic nuclear 
modernization because a lot of it is replacing old stuff with 
new stuff, as we'll be doing in about 10 years' time. And their 
modernization program seems to be sized to fit within the 
limits of the New START treaty. I tend to worry much more, 
though, about what they're doing in terms of tactical nuclear 
modernization, and things like this ``escalate to deescalate'' 
doctrine which suggests that they may have a threshold for 
nuclear use that is much lower than would be wise.
    Mr. Aderholt. It's the same for you all as far as your 
major concerns. Thanks for mentioning your concerns. That was 
my next question, what would be your--Dr. Carpenter--what 
stands out as the most concerning to you about particular 
aspects of these buildups?
    Dr. Carpenter. Well, I think the conventional military 
buildups are a concern. As we've seen in Ukraine, the multiple 
rocket launch systems and the artillery that is slightly older 
in terms of the technology have been highly lethal. It has 
decimated the armored personnel carriers that have been used by 
the Ukrainians on the battlefield. And we see similar in Syria. 
And so for our partners and our allies, this is a huge 
concern--less so in the event of a conflict with the United 
States. But then we're talking about a strategic confrontation, 
which is an entirely different ball game.
    I am concerned as well about the ``escalate to deescalate'' 
doctrine for settling a conventional conflict. This is a 
doctrine that allows for Russia to use a nuclear weapon first 
in the conflict to try to terminate it on Moscow's terms. And 
you can envisage the use of a tactical nuclear weapon, 
potentially a very low-yield tactical nuclear weapon, which 
would be potentially highly escalatory. And so this may be an 
aspect of their doctrine where the Russians are miscalculating, 
and in fact could be very dangerous and highly escalatory, 
despite their belief in the opposite.
    Mr. Aderholt. Mr. Rademaker?
    Mr. Rademaker. I would say that my concern is not just the 
fact that they're modernizing, because I think they have 
reasons that they can point to for wanting to do that. And they 
would argue it's essentially defensive in nature. But I think 
the reality is that they're not only modernizing, but they're 
now using their modernized military forces very actively. We 
see that in Ukraine. We see it in Syria. And I think it's that 
combination of not just modernization, but the willingness to 
deploy their forces and use force to try and effect outcomes on 
their periphery, but, as in the case of Syria, beyond their 
periphery.
    Mr. Aderholt. Thank you.
    Mr. Wicker. Thank you, Congressman Aderholt.
    Senator Gardner.

  HON. CORY GARDNER, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Gardner. Thank you, Senator Wicker.
    And thank you to the witnesses for your time and testimony 
today.
    I had the opportunity a couple of weeks ago to visit some 
of our soldiers out at Fort Carson and Colorado Springs, 
Colorado. It's the home of the 4th Infantry Division, the 10th 
Special Forces Group, and, of course, a lot of involvement in 
Atlantic Resolve and throughout Europe, various deployments 
over the past several years. In conversations I had with them, 
and obviously with our personnel at NATO, talked a lot about 
our muscle memory in Europe, and the fact that the United 
States over the past several decades, after the end of the Cold 
War, that we lost a lot of muscle memory when it comes to our 
activities, our presence, and our execution in Europe.
    So, as it relates to Russia, what do you think is the most 
alarming loss of muscle memory in Europe? Is it on the 
intelligence side? Is it how to move quickly through Europe, if 
necessary? Does it go back to some of the RAND research that 
talks about the amount of time Russia, if they decided to go 
into Eastern Europe, could move and the speed with which they 
could accomplish that movement? Could you talk a little bit 
about muscle memory, those concerns?
    Dr. Carpenter. Senator, I would say that probably the 
number one concern is the inability of moving troops quickly 
through the European theater to the locus of a conflict. And so 
U.S. Army Europe has been focused on trying to build a 
``Schengen Zone for the military'' to be able to get troops and 
supplies quickly to either the Baltic theater or the Black Sea 
theater in the event of a crisis there. But we're way behind 
the curve. And it takes a long time for the U.S. to be able to 
reinforce troops that are positioned on the front lines.
    That, and I would say the other thing is simply the absence 
of force posture. So I think we're rectifying that problem 
right now with the deployment of an additional brigade combat 
team on a rotational basis. I would support deploying on a 
permanent basis an additional brigade combat team, armored 
above and beyond that. I think having armor, especially on the 
eastern flank of the alliance in the Baltic states, would be 
significant. It would be a large deterrent for Russia. And 
especially if it is manned by Americans, as opposed to the 
multinational brigades, which are a step in the right direction 
because they provide allied skin in the game. But there is 
nothing that substitutes for American presence on the eastern 
flank.
    Mr. Gardner. Anyone else care to comment?
    Mr. Rademaker. I would volunteer the observation that, yes, 
there are important issues of American--what did you call it--
muscle memory loss. But I think far more important than that 
has been muscle memory loss on the part of our allies. And I'm 
not talking about in the last year or two. I'm talking over the 
span of the last two decades, where I think a lot of our allies 
sort of got beyond the whole notion of NATO as an important 
defensive alliance, because they didn't really perceive a 
realistic Russian threat. They didn't understand why they 
continued to need this alliance. And you saw reflected in their 
defense spending and their force structures that, you know, 
there really wasn't any expectation on their part that they 
were preparing or needed to be prepared for a situation where 
their security was actually threatened by Russia or some other 
external force.
    The Russian actions in Ukraine, one collateral consequence 
of that has been that it has reminded some of our allies of the 
fact that contrary to their hope at the end of the Cold War, 
they do continue to live in an environment where there are 
security threats. And the NATO alliance and their own military 
investments continue to serve an important function for them. 
President Trump does seem to have elevated the importance of 
the issue of defense spending on the part of our allies. And I 
think we see some of them are now trying to get to the 2 
percent threshold--the self-imposed threshold of NATO. So that 
would be a positive development, to see our allies start to 
regain some of the muscle memory.
    Mr. Gardner. Ambassador, did you want to add to that?
    Amb. Pifer. I would agree that I think President Trump has 
brought allies to think more seriously about their defense 
contributions. It's also, I think, important for our European 
allies, though, to think about how they spend their money 
wisely, because if you do do a dollar-to-dollar comparison 
between American military spending and European military 
spending, we get much more in terms of deployable force than 
the Europeans do. And they have to be smarter about how they 
spend their money.
    Mr. Gardner. Part of that--the muscle memory was a 
conversation about the shift of our intelligence assets that 
went to the Middle East after the Cold War. And that that 
intelligence has never been necessarily rebuilt in Europe. 
Could you talk a little bit about our intelligence efforts with 
our allies in Europe, and how that stands today? What needs to 
be done?
    Dr. Carpenter. Senator, I think our intelligence in terms 
of--I don't want to go too far into this subject--but I think 
in terms of liaison relationships and human intelligence is 
pretty solid in Europe. Where I think we are less solid is in 
terms of ISR, for example, which is a high-demand, low-density 
platform that is being--all of those platforms are being sucked 
into the Middle East, where they're being used on a 24/7 basis. 
And so we have less coverage from an ISR, SIGINT-type 
perspective in Europe. But that is simply a product of not 
having enough of these systems to be able to satisfy the demand 
that is there, both in the European theater, in the Middle 
Eastern theater, and now, as well, in East Asia.
    Mr. Gardner. And I understand--we may be under a time 
limit--so I want to just have one quick question. Should we be 
entering into some kind of an intelligence agreement with 
Ukraine? Would that be a useful tool, more than we have today?
    Amb. Pifer. Actually, we do have an agreement going to the 
1990s. There is already----
    Mr. Gardner. On some of the cyber sharing issues, a little 
bit further.
    Amb. Pifer. ----an exchange of classified military 
information. That is in place. And I think we now have an 
American unit in Yavoriv, in western Ukraine, training the 
Ukrainian military and the national guard. And my guess is 
we're actually learning quite a bit too, because some of the 
guys that we're training have actually been in Donbas. They've 
experienced the new Russian tactics. So this is actually a two-
way exchange.
    Mr. Wicker. Thank you, Senator Gardner.
    Senator Rubio.

  HON. MARCO RUBIO, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Rubio. Thank you, Mr. Chairman.
    Thank you all for being in this meeting. I know I came in 
late. I may have missed some of your conversation about 
escalate in order to deescalate, the use of tactical nuclear 
weapons on the battlefield to kind of raise the specter of 
that.
    Just to put it in perspective, the Russian economy is the 
size of the state of California, maybe even smaller. It's 
equivalent to Spain or Italy. So their ability to sustain the 
sort of broad defense posture the way the United States does 
across multiple potential theaters, it is limited. Nonetheless, 
they have shown the capability of spending more on that than 
wise policymakers would, because it's what gives them 
influence. Certainly, the nuclear stockpile's a different 
situation. It raises their influence above what their GDP would 
justify.
    All that said, the one area that I don't know if it's been 
discussed, and falls with what I think is an emerging threat if 
not an already existent one, is the use of asymmetrical means 
on behalf of the Russians in any conflict. And we saw evidence 
of that both in Crimea and in Ukraine, also in Georgia in 2008, 
and the sort of electronic warfare that targets critical 
infrastructure, command and control--obviously there's an 
element of disinformation and propaganda that becomes 
associated with that as well. But this is an asymmetrical means 
of either escalating to de-escalate and/or denying your 
potential adversary some of their more advanced capabilities. 
And it is one that is quite cost effective, dollar for dollar.
    So I don't know if that's been talked about enough, but 
perhaps--and then if you are prepared to talk a little bit more 
in depth about some of the means and measures used on behalf of 
the Russians in their intervention in Crimea and Ukraine and 
before that in Georgia in terms of the use of electronic 
warfare to target critical infrastructure--both civilian and 
military--and, of course, command and control and the like, 
because I think that ultimately will pose a threat first from 
Russia, but from other adversaries around the world as well as 
the years go on.
    Dr. Carpenter. Thank you, Senator. I would completely agree 
with you. I think you see an evolution in terms of Russian 
doctrine from a largely conventional war in Georgia to an 
unconventional war, where they used special forces, little 
green men, in Ukraine, to a military intelligence organized 
coup d'etat in Montenegro, that was luckily foiled, to 
political subversion campaigns across the United States and 
Western Europe.
    They are both expanding the geographic scope of their gray 
zone operations, but they are also increasingly moving from 
conventional military force to more covert, subversion 
measures. And I think it's because it's cheaper, it's easier, 
and it's likely more effective. But, in both Ukraine and 
Georgia, while they were able to stall Euro-Atlantic 
integration, the populations have become rather pro-Western--
have stayed pro-Western or become even more so, and have 
developed some hostility towards Moscow.
    Mr. Rubio. And obviously, I know it's been extensively 
discussed and I think it's very relevant and a big threat. I'm 
going beyond just that. I'm talking about the ability to shut 
down power grids, the ability to shut down command and control. 
The ability to shut down or attack the banking sector. The 
sorts of critical infrastructure attack that we saw some 
evidence of that in the Ukraine-Crimea situation. Saw some of 
that even before that in the Georgia 2007-2008 timeframe. 
That's one that's not getting a lot of attention, but I think 
poses a real threat. And I have no doubt we would see deployed 
in any sort of Eastern European conflict or potential conflict, 
especially nations that perhaps have not invested in hardening 
against that sort of intrusion.
    Dr. Carpenter. Well, that is primarily, Senator, a cyber 
threat more so than an electronic warfare threat. But it has 
been deployed, as you say, in Georgia and Ukraine. And we know 
the Russians have penetrated a lot of U.S. Government networks, 
the networks of our allies as well. So their ability 
potentially to be able to shut down critical infrastructure is 
enormous. I mean, they have shut down electric power plants in 
Ukraine. They have penetrated networks in other allied 
countries, including Ministry of Defense networks in a lot of 
our allies. And so this is something that we need to work on, 
both here domestically but also in terms of building up the 
cyber defenses of our allies. It's critically important. This 
is potentially one of the most lethal threats that we face, 
even if it is non-kinetic.
    Mr. Rubio. And just in closing I would say that the proper 
terminology is probably cyber. The reason why I always kind of 
describe it a little differently is because when people think 
of cyber in the public they're thinking, oh, they're going to 
hack my emails. This is way more than hacking emails. We're 
talking about shutting down potentially a power grid and the 
like. And in a conflict, everyone could imagine how 
debilitating that would be to any nation-state, particularly 
some of these Eastern European NATO allies that would probably 
be on the front lines of any such effort.
    Mr. Wicker. A health care system, for example, Senator 
Rubio.
    Mr. Rubio. [the lights in the room dimmed briefly] They 
just did it right now. [Laughter.] There you go. There you go. 
[Laughter.]
    Mr. Wicker. You spoke it and it happened. [Laughter.]
    Senator Cardin.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, thank you, Mr. Chairman. I apologize for 
being late. I had a couple other committees that I had to 
participate in.
    But I just really want to underscore the importance of this 
hearing and thank our witnesses. It's very interesting. I've 
been dealing with Russian policy for a long time--from the 
former Soviet Union. Russia has violated every one of the 
Helsinki Final Act's 10 guiding principles--every single one. 
And I've sat across from Russian parliamentarians where they 
complained that we tried to interfere with their internal 
operations, even though the Helsinki Final Act gives us the 
responsibility to raise violations. And we're not interfering 
with their country.
    But then Russia directly attacks other member states, as 
they did with Ukraine, the most recent. It wasn't the first 
country that they violated. They were involved in Moldova. They 
were involved in Georgia. Ten thousand people lost their lives 
as a result of the military incursions in Ukraine. So it has 
deadly consequences. And many, many thousands have been 
displaced. I mention that because Russia's dangerous. And the 
United States policies need to recognize that danger.
    So I guess my question is that Russia seems to go in 
wherever there are voids. They see an opportunity where we 
don't have a NATO member in Europe, where there's some chaos. 
They come in and try to stir it up, and then bring their 
military presence in to cause instability, trying to weaken the 
European Union, trying to weaken the transatlantic partnership. 
So where's their next move in Europe? Where do you see the 
vulnerabilities that could lead to Russia's military operations 
in an effort to stir up problems?
    There's a lot of countries in Europe that have large 
Russian-speaking populations. Where would you want us to focus 
on concerns where other countries could become prey to Russian 
aggression? We know they don't always use their direct 
soldiers. They send in resources. They use a local population 
that they have influence over. Where do we think the next 
attack is likely to occur?
    Amb. Pifer. Senator, I would continue to worry about the 
Baltic states. I don't think Russian military action against 
the Baltics is likely. But it's not a zero probability. And I 
think if we were having this hearing five or six years ago, we 
would have said it was a zero probability. So I'd worry about 
that. But it does get to your point that we need to make clear 
to the Kremlin that there are red lines. I hope that when the 
President is in Brussels at the NATO summit next week that 
there's a very clear American commitment to Article 5, because 
we don't want the Russians to miscalculate and believe falsely 
that the United States would not respond to military action 
against an ally.
    Likewise, I think on questions like the Russians' loose 
talk about nuclear weapons and escalate to de-escalate, we 
should begin to devalue that notion in the mind of the Russians 
right now by basically saying: Look, a nuclear weapon is a 
nuclear weapon. If you use one, even if it's a small one, you 
still have crossed a threshold that has not been crossed in 70 
years, and you should anticipate that the consequences would be 
unpredictable and potentially catastrophic. And in the case of 
Ukraine, we should make very clear that a major Russian 
offensive will lead to major consequences. Not sending the 
American military, but new economic sanctions and a certain 
American military support.
    We need to begin to shape Russian thinking, that they have 
to understand that there are certain places that the West will 
not tolerate Russian overreach and will push back on. And 
hopefully, as we shape that thinking, maybe Moscow comes around 
to a more accommodating view on some of these questions. 
Because red lines are going to be important if we want to make 
our dialogue ultimately be more successful.
    Mr. Cardin. Well, NATO has red lines. I would think that 
that is pretty clear. If we don't enforce the red lines in 
NATO, I think we have serious challenges. But you raise a very 
valid point. We've been, in the first months of this Congress, 
playing defense to try to maintain our sanctions against 
Russia, both internally as well as in Europe. And we have been 
able to maintain our sanctions. But Russia's activities have 
gotten worse. They're much more aggressive. The cyber 
activities that we talked about--much more aggressive. So 
without U.S. leadership on saying there's a consequence to 
that, it's very, very unlikely that you'll see Europe do much 
without the United States taking the lead.
    So we don't see any leadership from the Trump 
Administration in using stronger sanctions against Russia. The 
congressional branch of government needs to show leadership 
here. And we have a bipartisan bill that has strong support. 
Senator McCain is my co-sponsor, and Senator Shaheen is one of 
the great leaders on that bill. And we've had the support of 
Senator Graham and Senator Rubio, and Senator Wicker has been 
an outspoken supporter of taking a strong stance against 
Russia. We need to take some action here in Congress. Do you 
agree with that?
    Amb. Pifer. Yes, sir. One of the things I worry about is 
that if the West response in the case of Ukraine is not 
sufficiently strong, does the Kremlin conclude that the tactics 
that they've employed against Ukraine over the last few years 
can be managed at acceptable cost? In which case, they might be 
tempted to use them elsewhere. Likewise, I think that there 
should be a stronger American reaction to the Russian 
interference in our election. Right now, my guess is at the 
Kremlin they're thinking, you know, this doesn't have many 
costs and it's pretty tempting to try it again, as we've seen 
in France and as I believe we're going to see in the next three 
or four months in Germany.
    Mr. Cardin. Thank you.
    Mr. Wicker. Glad to hear that there's bipartisan support 
for stronger action on sanctions. And I think, Senator Cardin, 
before you came in there was testimony to the effect that the 
Magnitsky list should be expanded by the State Department. And 
I know you and I support that also.
    We're going to take a second round. Congressman Smith will 
go next and then I'll follow him.
    Mr. Smith. Thank you very much, Mr. Chairman.
    And thank you for your testimonies.
    Both my older brothers were military pilots. One of my 
brothers, Tom, flew A-7s off the USS Enterprise. As in control 
as fighter pilots are, and we had a conversation about this 
last week, my brother expressed to me his deep concern that the 
probability of an incident, a collision, increases 
exponentially with the number and proximity of these very 
provocative acts, these near-misses that are occurring with 
increasing frequency. I wonder if any of you might want to 
speak to what's behind this reckless behavior. Again, a pilot 
might think that he can, you know, break off. But it's going to 
happen, I think. There are just too many of them, that 
something is going to happen. What's behind this reckless 
behavior? And are the two-way communications between ourselves 
and the Russians--NATO and the Russians sufficiently adequate 
to mitigate any kind of escalation, both immediate in proximity 
to what's happening, and maybe even a further escalation into 
war by miscalculation?
    Dr. Carpenter. Congressman, I believe that a lot of these 
aggressive intercepts are part of a deliberate strategy. You 
just have to contrast how Russia behaves in the Baltic or the 
Black Sea with how they behave in Syria, where we have a 
deconfliction channel and where our pilots are in very close 
proximity in a very congested air space, and manage to avoid 
these sorts of incidents. I personally don't believe that any 
sort of new communication channels or agreements on 
transponders, as has been proposed, will have any effect on 
Russian behavior, because the desire on the part of the Kremlin 
is to intimidate, to send a message, to keep the United States, 
but also our NATO allies, out of their backyard.
    And so if they see any diminution of our ops tempo, of our 
operations, in these regions, they will conclude that this is a 
successful strategy and will continue with it. And so my view 
is that we need to continue with our ops tempo exactly as it 
is. But this is certainly dangerous behavior, endangering the 
lives of both American and Russian air crews.
    Amb. Pifer. I agree with Mike that I think this is actually 
a part of deliberate Russian policy to raise this risk of 
accident and miscalculation. But I don't think there's anything 
that the United States or NATO lose by trying to set up 
channels. So, for example, in 1989 we had the Dangerous 
Military Activities Agreement that regulated U.S. and Soviet 
forces along the inter-German border. I wonder if a 
resurrection of something like that might make sense now in the 
Baltic and the Polish region, where you do have NATO forces on 
a border directly facing Russian forces.
    And that Dangerous Military Activities Agreement had things 
like, for example, agreed radio channels where, if you saw the 
guy on the other side of the border doing something that you 
didn't understand, you had a channel. Call and say: What are 
you doing? Things like that. I'm not sure the Russians would 
accept that, but I see no harm and potential value to NATO in 
trying to engage Russia on those sorts of channels, because the 
sides presumably should not have an interest in war breaking 
out, just because somebody makes a mistake or misunderstands 
what a young Russian pilot is doing.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Wicker. Thank you.
    Gentlemen, let's talk about Russia's destabilizing 
transfers to neighboring and regional countries of threatening 
weapons systems. Just this past year, Russia delivered the S-
300 missile system to OSCE member state Belarus, with a range 
of upwards of 250 kilometers. Russia has also positioned the 
Iskander-M missile system to its base in Kaliningrad, which has 
the capability of carrying a nuclear payload within 500-
kilometer radius. As a matter of fact, the Lithuanian foreign 
minister said in October of last year that with some 
modifications this could go to 700 kilometers, which would then 
include Berlin. Also, Russia has transferred the Iskander-E 
missile system to OSCE member state Armenia. How troubling is 
this? And would you three gentlemen have comments on these 
destabilizing arms transfers and how they are stoking tensions 
throughout Europe and Eurasia?
    Mr. Rademaker.
    Mr. Rademaker. Thank you, Mr. Chairman. There's a long 
history to destabilizing Russian transfers to countries of 
concern. I recall during the 1990s, there was great concern 
about missile technology transfers by Russia to Iran. And, in 
fact, Congress enacted legislation--the Iran Nonproliferation 
Act--directed at precisely that issue--seeking to impose 
sanctions on Russian entities that were involved in making such 
transfers. That law, aimed at what were violations by Russia of 
its obligations under various supplier regimes for limiting 
exports of sensitive technology and systems. And, you know, 
these regimes exist under the Nuclear Nonproliferation Treaty. 
That one's called the nuclear suppliers group. They exist under 
the chemical weapons and biological convention. That's called 
the Australia Group. The missile technology control regime 
exists to limit missile technology transfers.
    Some of the transfers you alluded to violate these regimes. 
The S-300, that's not a ballistic missile so the transfer of 
that is not limited by the missile technology control regime, 
but it's nonetheless a destabilizing transfer. And you didn't 
mention the transfer of S-300s to Iran, but that's another step 
that the Russians have taken, over strong U.S. objections. The 
Iskander missile, which you referred to, that is a ballistic 
missile.
    My understanding is there are two versions of the Iskander. 
There's the Iskander-M, which is a roughly 500-kilometer range. 
Transfers of that are limited by the missile technology control 
regime. Russia is presumptively not to transfer that technology 
to anybody. Then there's the Iskander-E, which is--E I think 
stands for export. It's supposed to be the export-controlled 
version, which has a range less than 300 kilometers. So it 
could be transferred consistent with the missile technology 
control regime.
    Obviously when they deploy it in their own territory, in 
Kaliningrad, that's not a transfer to anybody. But if they 
transfer it to a country like Armenia, then the key question is 
which version did they transfer? Was it the E or the M? If it 
was the E, then it was consistent with the missile technology 
control regime. If it was the M, it would be inconsistent. I've 
actually seen conflicting press accounts of which version was 
transferred to Armenia.
    Mr. Wicker. Ambassador.
    Amb. Pifer. Mr. Chairman, I actually tend to be pessimistic 
about our ability to stop some of these things. I mean, the 
Russians will argue, for example, on the S-300 sale to Belarus, 
they're saying Belarus is one of the few countries in the world 
that would say is an ally of Russia. And they would say that 
providing that air defense system to Belarus is the same as, 
for example, the United States selling the Patriot Air Defense 
system to Poland.
    On Iskander to Kaliningrad, from what I've seen, the 
Iskander, they're in the 4- to 500-kilometer range, which is 
not covered by the INF Treaty, the ballistic missile. It seems 
to be that the Russians are now, basically as they phase out 
the SS-21, which was their previous short range surface-to-
surface missile, those units are now receiving the Iskander. 
From what I've seen, the Iskander has been deployed temporarily 
with exercises in Kaliningrad, but the Russians previously had 
SS-21 permanently based there. And it's my expectation that at 
some point you'll see the Iskander in Kaliningrad. So we'll 
have to think about, on the NATO side, what are the sorts of 
defenses that you would want to be able to deal with that 
system. But I don't think we're going to be able to persuade 
the Russians not to go forward with it.
    Mr. Wicker. Thank you.
    Senator Shaheen.
    Mrs. Shaheen. Thank you, Mr. Chairman.
    I want to follow up on Senator Cardin's question about 
where do we expect the Russians may agitate next in Europe, 
because I'm very concerned about reports that are coming out of 
the Balkans, particularly in Bosnia and Serbia and Kosovo, 
where it seems they're agitating to try and prevent further 
calming of the conflict between Serbia and Kosovo, and also 
where they're ginning up the Republika Srpska, since we 
mentioned that, to continue to try to agitate to leave Bosnia 
and really play on some of the tensions that exist in the 
region. So I wonder if you all can comment on that, and what 
you're hearing, and also what should we be doing as we think 
about the challenges that the Balkans are facing to try and 
support their continued move towards democracy and integration 
in the EU and the West.
    Dr. Carpenter. Well, thank you for that question, Senator. 
I was going to reply to Senator Cardin's question with 
precisely this answer: That the Western Balkans is in the 
crosshairs of Russian influence operations right now, 
particularly Republika Srpska, where they have been encouraging 
President Dodik to pursue his secessionist agenda. And we could 
see, in fact, within the course of a year, that a referendum 
will be declared on the succession of Republika Srpska from 
Bosnia and Herzegovina. They have also been intervening in 
Macedonia, supporting Mr. Gruevski and accusing the United 
States of trying to subvert the previous government and of 
meddling. But this is now being superimposed--this political 
tension between the former ruling party, VMRO, and the 
opposition, SDSM, with an ethic overlay between ethnic 
Albanians who are members of the coalition and ethnic 
Macedonians.
    And so the potential for this spinning out of control and 
creating a full-fledged ethnic conflict in the Western Balkans 
is, in my view, very high. And I mentioned the plot for a coup 
d'etat in Montenegro in October--across the whole region Russia 
is meddling and trying to subvert some of the governments and 
sow chaos and instability. And so I think for us, we just 
simply need to get more engaged in the Balkans. We need to 
support the Belgrade-Pristina Dialogue. We need to support 
those in Bosnia and Herzegovina that want to activate MAP and 
move forward with their NATO integration process. I'm not 
saying membership, just MAP, which is has been held up for very 
artificial reasons over the issue of registration of defense 
properties.
    But when I was at the A5 Defense Ministerial in December of 
last year, I heard from absolutely everybody across the board--
including quietly from the Serbian delegation--that Russia was 
playing an outsized role in every country in the region.
    Mr. Wicker. Tell us about what the Serbian leadership's 
position would be with regard to this proposed possible 
referendum in Republika Srpska.
    Dr. Carpenter. Very much opposed. But of course, the 
previous Serbian prime minister, Aleksander Vucic, is now the 
president of Serbia. And so when we have a new prime minister, 
which is where most of the executive authority in Serbia is 
vested, we will see whether they will pursue that policy of 
trying to push back Dodik's more aggressive moves in Republika 
Srpska and Banja Luka, or whether they will, in fact, stand by 
or potentially support them more. In fact, the decision on who 
will become the next prime minister will be a bit of litmus 
test as far as whether Serbia is hedging more towards Moscow or 
more towards Brussels.
    Mrs. Shaheen. Any other comments anybody wants to make on 
that issue?
    Mr. Rademaker. Senator, I noted in the conclusion of my 
testimony that Russia's approach to the region really is based 
on a zero-sum view of security, that they think keeping their 
neighbors weak and vulnerable keeps them stronger. And I think 
you see that in looking over the last 10 or 15 years in their 
policies towards some of their neighbors. What is very 
interesting is, though, that they do--hopefully for the right 
reasons--they do seem to be respecting the lines that NATO 
draws. They have focused their efforts on countries that are 
not NATO members. And of course, as members of NATO, we have no 
obligation to defend non-NATO members. I think the Georgians 
discovered that, to their chagrin, in 2008. But it was true. 
Ukraine has discovered it more recently.
    The Western Balkans is an area that, by and large, lies 
outside of NATO. And therefore, I think for Russia, it presents 
an opportunity. And it is something that I think we need to be 
deeply concerned about. I also worry--as Ambassador Pifer noted 
in responding to Senator Cardin's question--if the Russians 
ever decide to press or look beyond the NATO borders, I think 
the area most at risk would be the Baltic states, which, of 
course, were a part of the Soviet Union and therefore arguably 
part of the Russian near-abroad, where they've asserted 
publicly they think they're entitled to have a special security 
role.
    So we need to be alert to use by Russia of some of these 
new tools that Senator Rubio referred to, if they're brought to 
bear in the Baltic states. Whether we're prepared as an 
alliance to respond to that, I'm concerned that we're not. So 
the ultimate solution is a change in the Russian mindset, where 
they stop approaching the world with this zero-sum mentality to 
security issues. But until we get to that point, I think we 
need to worry especially about the countries in Europe that are 
not in NATO. But also some of the countries in NATO which 
border Russia; I think we need to be concerned about them as 
well.
    Mrs. Shaheen. And that speaks to Ambassador Pifer's comment 
about being very clear that we are committed to maintaining 
Article 5 for all of our NATO allies.
    Amb. Pifer. And if I could just briefly add on the Balkans, 
I am mindful of that when you look at the U.S. global focus, I 
worry that the Balkans may not get sufficient U.S. attention.
    Mrs. Shaheen. Me too.
    Amb. Pifer. The Balkans, to my mind----
    Mr. Wicker. Me too.
    Mrs. Shaheen. Yes.
    Amb. Pifer. The Balkans, to my mind, actually would be a 
place where I'd like to see Europe lead, where the European 
Union has traction. This ought to be a focus. And so if we 
could somehow encourage Europe to take that role, that would be 
a good thing.
    I'm also mindful--I served at the American embassy in 
London in the early 1990s, and we watched Europe take the lead 
the first time when Yugoslavia came apart, and it didn't work 
out well, and ultimately the United States did have to get 
involved. But at some point we need to figure out, is there a 
way where Europe can begin to take on some of these 
responsibilities, because we're going to have to be thinking 
about other issues that are outside of Europe.
    Mr. Wicker. You know, we've drawn such bright lines and 
made such explicit statements with regard to the Baltic 
countries. I do sort of fear that we haven't been as explicit 
with regard to the former Yugoslavia, and so I share some of 
your concerns there. Help us understand this attempted coup in 
October and whether we should be worried about similar efforts.
    Dr. Carpenter. Absolutely, Mr. Chairman. I think this could 
be the wave of the future in terms of how Russia tries to 
destabilize countries in the region.
    Mr. Wicker. So tell our audience in a nutshell what 
happened there.
    Dr. Carpenter. In a nutshell, a small number of Russian 
military intelligence agents organized and planned a coup 
d'etat on Election Day in October in Montenegro. They hired 
approximately 20 local mercenaries from Serbia and from 
Montenegro, members of organized crime groups and radical 
nationalist circles. They were to dress in Montenegrin police 
uniforms and fire on protesters outside of parliament on the 
day of the election in order to incite chaos and assassinate 
the prime minister. Now, in order to ensure that there would be 
protesters who turned out on Election Day, Russia also used 
covert means to fund opposition political parties and NGOs 
through cutouts in Montenegro. And they also perpetrated 
cyberattacks on Election Day. They both shut down government 
networks so that the authorities in Podgorica would not be able 
to communicate the election results to their citizenry, but 
they also hijacked social media platforms like Viber and 
WhatsApp to spread fake news and disinformation claiming that 
the vote count had been rigged and tampered with. This was an 
attempt to get protesters to come out.
    Now, the coup plot was foiled in advance thanks to good 
intelligence and a tipoff.
    Mr. Wicker. How early?
    Dr. Carpenter. But the cyberattacks took place.
    Mr. Wicker. How early was it foiled?
    Dr. Carpenter. I would have to address that in a closed 
session.
    Mr. Wicker. Oh my gosh. OK. But this could certainly occur 
again, particularly in a relatively small and vulnerable 
republic.
    Dr. Carpenter. Absolutely. I couldn't agree more. And I 
think the Western Balkans, as I said, are in the crosshairs for 
this type of action.
    Mr. Wicker. Yes, please. Mr. Rademaker.
    Mr. Rademaker. I just wanted to add the detail that all of 
this took place in a context where Montenegro was in the 
process of acceding to NATO. And so success of the coup there 
might have--depending on whatever government came to power, 
might have ended their NATO accession process.
    Mr. Wicker. Is there any question that Mr. Putin was 
involved in this?
    Dr. Carpenter. No question in my mind.
    Mr. Wicker. Mr. Rubio mentioned the economy of Russia being 
about the size of Spain. We are trying to insist on 2 percent 
of GDP for our NATO allies. What percent of GDP does Russia 
spend? And are they going to have a problem sustaining this 
military modernization and buildup?
    Amb. Pifer. The Russian economy, I think, is projected to 
grow at about 1.2 percent this year. And I don't know--I think 
it was about--what, 5 percent that they hit at one point, but 
the number's actually coming down now, and I think it's 
reflecting the fact that the Russians understand that there are 
budgetary limitations. In 2015, they began reducing the budgets 
for things like health and education, but this year and next 
year they're projecting significant decreases in military 
spending. Now, part of that may also reflect the fact that a 
lot of their modernization has already been funded, but they 
are beginning to run up against some budget realities.
    Dr. Carpenter. Although, if I could, I would just say I 
don't think we can be too sanguine that they will not be able 
to continue the tempo that they have in Syria or Ukraine 
because their reserves remain just under $400 billion. So they 
have a significant amount of reserves that they've built up 
through the 2000s, when oil prices were very high, that they 
can still draw on to be able to perpetuate these sorts of 
actions in Ukraine and elsewhere.
    Mr. Wicker. And, finally, in the area of public diplomacy, 
Russia eats our lunch. Does anyone agree with that or disagree 
with that and want to comment about it? And how can we do a 
better job without becoming a propaganda organ of getting 
public information to people in that region of the world? Do 
they eat our lunch? Am I wrong?
    Dr. Carpenter. No, Chairman, I think they do. Not in the 
United States, but I think their ability to perpetrate 
information warfare in places like Moldova or Georgia 
especially, where a lot of attitudes have shifted over the last 
couple years in both of those countries, but also in the Baltic 
states, is very robust.
    And so I think one of the means of pushing back has to be 
to inoculate the populations to what Russia is doing. Actually, 
you find that the Baltic states are quite good at this. There 
has been an education campaign by the governments in the Baltic 
states. The population knows that false stories come out of 
Russian media, and the mainstream media are also very quick to 
debunk Russian stories.
    So, for example, when the multinational battalions were 
deployed to the Baltic states and Russian media started to 
propagate fake stories about alleged rapes that had taken place 
by some of the soldiers who are on these territories, 
immediately the Baltic media were able to clarify that this was 
false, disinformation, and correct the record. And so they have 
a lot of experience with this. And I think, you know, some of 
the Western European countries and here in the United States--
--
    Mr. Wicker. And yet, the Baltic media is independent of the 
government.
    Dr. Carpenter. It is. The governments of some of the Baltic 
states, particularly Estonia, also fund Russian-language media, 
television--broadcast television which is able to get the 
message out to the Estonian ethnic Russian, Russian-speaking 
population.
    Amb. Pifer. I would add that the Russians devote a lot of 
resources to this. I recall about two years ago, when I was in 
Prague, and I turned on the television. I could not find CNN, 
but I could find RT in English, RT high-def in English, and RT 
in Spanish.
    Mr. Wicker. Shouldn't we be investing more resources?
    Amb. Pifer. I think we should be investing resources, but I 
would focus on what I believe is the vulnerability of both RT 
and Sputnik, is that there's a lot of bad information they put 
out, and the focus should be on discrediting those channels. 
And then, basically, we want a situation where a target 
audience in Europe, when they hear something, they say, that's 
just RT, we know they lie. And that's an area where perhaps we 
could do better in terms of fast reaction to discredit the 
stories immediately when they come out. If we discredit a story 
five days later, it doesn't really help. But if we can come out 
immediately and say this is false, here's the evidence, I think 
we can take down those channels, and reduce their credibility 
and their potential impact.
    Mr. Wicker. Mr. Rademaker.
    Mr. Rademaker. Mr. Chairman, I would just add the 
observation that in the area of information warfare there's 
sort of the overt and then there's the covert. And I think in 
the overt area, which is what we've been talking about here, 
you know, Russia does a reasonably good job. Although I have to 
say I occasionally watch RT, and to me it's kind of laughable. 
I mean, it is sort of thinly-veiled propaganda and I don't take 
it seriously. I don't know whether average citizens find it 
more persuasive, but you know, I----
    Mrs. Shaheen. They do.
    Mr. Wicker. I'm afraid they do.
    Mr. Rademaker. Yes. But I worry actually less about that 
than I do the covert side because during the Cold War I believe 
both sides were engaged in covert efforts to generate 
information in support of their political objectives. I think 
Russia remains in that business, especially in Europe. I don't 
think the United States is very much in that business anymore.
    And so, it turns out, there's a very active environmental 
movement against fracking in Europe and against the 
construction of the southern energy corridor, and it's pretty 
clear the money for this environmental movement, a lot of it's 
coming from Moscow. And what's Russia's concern? Well, you 
know, it would be nice for Europe to remain dependent on 
Gazprom and not have alternate sources of energy, either 
domestic through fracking in countries like Poland or gas that 
comes from the Caucasus. So that's just one example.
    And I think support to political parties that have agendas 
that are amenable to Russia is another area. Senator Whitehouse 
referred to that in his question. I think this is an area where 
Russia has pretty much a free hand and no one is pushing back 
on them. And I don't think there's even really much effort to 
call them out on it and expose what the Russians are doing in 
that area.
    Mr. Wicker. Do we need to revamp the Broadcasting Board of 
Governors in this country, Dr. Carpenter?
    Dr. Carpenter. I would say--well, the BBG has got some good 
programs. It's recently launched a program called ``Current 
Time,'' which is a digital Russian-language platform that 
reaches Russian-speaking audiences on Russia's periphery and 
inside--and it's digital, so it can be picked up on the 
internet in Russia as well. Unfortunately, it doesn't compete 
with the more glossy Russian broadcast TV channels that offer 
attractive entertainment programming as well.
    I would support putting more resources into this sort of 
effort, but I don't think it's going to be the be-all and end-
all of countering Russian disinformation. I think we've got to 
be more active on the offense as well. I think we need to be 
talking more about corrupt patterns within Russia. Some of the 
information, for example, that has been brought to light by 
Alexei Navalny's organization, that has wide currency in 
Russia. And if we were able to not just play Whac-a-Mole with 
Russian disinformation and lies, but also spread some of this 
information, I think that would be highly effective in terms of 
pushing back.
    Mr. Rademaker. Mr. Chairman, if I could just add, 
particularly if there is additional information available to 
the U.S. intelligence community that could be declassified on 
Russian corruption, I think that would actually be a proper 
response to what the Russians did to our election, and 
basically signal the Kremlin: If you want to play this game, we 
may not be able to play it in the same way, but I'm sure that 
the Kremlin would not like to see more information about the 
corruption and the billions of dollars held by people that are 
close to Vladimir Putin.
    Mr. Wicker. Thank you, gentlemen, and thank you to our 
panel and the members of the Commission who participated. And 
also, thank you to our audience today. This hearing is now 
adjourned.
    [Whereupon, at 11:21 a.m., the hearing ended.]

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    The Commission will come to order, and good morning to everybody. 
Welcome to today's hearing on the ``Growing Russian Military Threat in 
Europe.''
    This is the Commission's second hearing of this Congress. Our first 
hearing, on April 26, rightly focused on human rights abuses within 
Russia. Today's hearing will examine Russian actions beyond its 
borders--specifically Moscow's use of military force to further its 
ambitions.
    The mandate of the Helsinki Commission requires us to ``monitor the 
acts of the signatories which reflect compliance with or violation of 
the articles of the Final Act of the Conference on Security and 
Cooperation in Europe,'' also known as the Helsinki Final Act.
    Even a casual observer of international affairs would recognize 
that Russian military aggression has posed a tremendous threat to the 
European security order in recent years. The Russian leadership has 
chosen an antagonistic stance, both regionally and globally, as it 
seeks to reassert its influence from a bygone era.
    The actions taken by the Russian leadership under this aggressive 
posture have without any doubt violated commitments enshrined in the 
Helsinki Final Act and other agreements. To name three key examples:

        1. Russia has breached its commitment to refrain from the 
        threat or use of force against other states;

        2. Russia has breached its commitment to refrain from violating 
        their sovereignty, territorial integrity or political 
        independence; and

        3. Russia has breached its commitment to respect other states' 
        right to choose their own security alliances.

    Many of Russia's neighbors have faced Russian military aggression 
in recent years. Ukraine and Georgia have both seen important parts of 
their territories forcibly occupied, including the illegal attempted 
annexation of Crimea in 2014. Russian forces continue to be present in 
Ukraine, Georgia, and Moldova, against the wishes of the governments of 
those countries.
    In addition to its direct aggression toward its neighbors, Moscow 
has also made it a priority to undermine the effective functioning of 
several conventional arms control agreements and measures for 
confidence and security building. These measures, to which Russia is a 
party, include:

        1. The Treaty on Conventional Armed Forces in Europe, which 
        limits heavy ground and air weapons in Europe and provides 
        information on current arms holdings, including their location;

        2. The Open Skies Treaty, which provides for mutual unarmed 
        aerial reconnaissance of member states; and

        3. The Vienna Document on Confidence- and Security-Building 
        Measures, which provides for information exchanges, on-site 
        inspections, and notifications of the military activities, 
        arms, and force levels of OSCE participating States.

    These agreements--along with others, such as the INF Treaty, which 
Russia is also violating--together form an interlocking web of 
commitments that have proved fundamental to the stability of the post-
Cold War European security architecture. They were designed to enhance 
military transparency and predictability, thereby increasing confidence 
among the OSCE participating States.
    Unfortunately, the actions of the Russian leadership in recent 
years have demonstrated that Russia sees little value in the 
transparency and predictability that have kept the peace in Europe.
    I would like to make one more point. I want to reiterate my dismay 
regarding the tragic death of American paramedic Joseph Stone on April 
23. Mr. Stone was killed while serving his country as a member of the 
OSCE Special Monitoring Mission in Ukraine when his vehicle struck an 
explosive--likely a landmine--in separatist-controlled territory, an 
event that also injured two other monitors.
    This is the first time in the history of the OSCE that a mission 
member has been killed in the line of duty, and make no mistake, Mr. 
Stone's death was directly related to Russia's aggression towards its 
neighbors. Had Russia not invaded Ukraine in the first place--and had 
it lived up to the Minsk agreements, and ceased supporting, directing, 
funding, and fueling separatists in this region--there would have been 
no need for the monitoring mission to continue. Once again, I extend my 
condolences to Mr. Stone's family and friends.
    I also want to take this opportunity to call for an end to the 
harassment faced by these brave monitors on a daily basis, and I urge 
all sides to provide the observers with unfettered access.
    We have put a photograph of OSCE monitors in the room as a reminder 
of the continuing challenges faced by these brave monitors as they 
carry out their extremely important mission.
    Our hearing today has three objectives. We will:

        1. Examine Russia's undermining of European security, the OSCE, 
        and its arms control agreements and commitments;

        2. Assess whether it will be possible to move Russia back 
        toward compliance with its commitments under the Helsinki Final 
        Act and the associated OSCE agreements, and if so, how to get 
        there; and

        3. Finally, explore how we can maximize the value of these 
        agreements and the OSCE as a whole going forward.

    I am grateful to the members of our distinguished panel for their 
willingness to provide expert views on these topics, and I look forward 
to our discussion today.

  Prepared Statement of Hon. Chris Smith, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    Good morning and thank you to Chairman Wicker for convening this 
important hearing to examine Russian military aggression in the OSCE 
region.
    Russia today stands in violation of the central commitments of the 
Helsinki Final Act. These commitments include respect for the 
territorial integrity of States, fundamental freedoms, and the 
fulfillment in good faith of obligations under international law. In 
violating these commitments, Russia is threatening the foundations of 
European security and recklessly endangering the lives of millions.
    One such victim of Russian aggression is Joseph Stone, the 36-year-
old American medic who was killed by a landmine while on patrol in 
separatist-controlled eastern Ukraine with the OSCE's Special 
Monitoring Mission on April 23rd. If it weren't for Russia's 
unjustifiable aggression toward Ukraine's sovereignty there would be no 
need for such a monitoring mission. And yet, day after day, OSCE 
monitors put themselves in harm's way to try to reduce the tensions 
created by the reckless conduct of Russia and its proxies in eastern 
Ukraine. It is a conflict that has already claimed over ten thousand 
lives, and sadly is guaranteed to claim more.
    Russian aggression is not a localized phenomenon--it threatens the 
entire region. Moscow has seized sovereign territory by force, 
threatened to use tactical nuclear weapons against other countries, 
harassed U.S. and Allied military assets, and abandoned key 
transparency measures and commitments. These actions are unacceptable.
    In the face of such provocations, the United States must leave no 
doubt that we stand behind our Eastern European and Baltic Allies. 
There is no time to waste: we must ensure the confidence of our friends 
at this critical juncture.
    One way to do this is to continue building a credible conventional 
deterrent to Russian aggression alongside our allies, in particular 
Poland and the Baltic States. I have consistently supported robust 
funding for the European Reassurance Initiative. With the support of 
this initiative, since 2014, NATO members have held over 1,000 military 
exercises in Europe. ERI has allowed the U.S. to participate more 
extensively in such exercises and increase its deployment of soldiers 
and military assets in allied countries. Furthermore, it has helped us 
to build the capacity of our partners and generally make our commitment 
to European security felt. These kinds of activities must be sustained 
and expanded to ensure that we are ready to counter any threat at any 
time.
    This hearing will give us an opportunity to learn what more the 
U.S. can do on this front, both bilaterally and within NATO. In 
particular, I look forward to Dr. Carpenter's testimony about the 
extent of the challenge posed by Russian aggression in the OSCE region; 
Mr. Rademaker's thoughts about the implications of Russia's flouting of 
its arms control and transparency commitments; and Ambassador Pifer's 
perspective on developments in Ukraine and what they mean for the 
region. I will also be interested to hear from our witnesses about the 
role of the OSCE in all of this.
    To all our witnesses, I thank you for your time today.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    Chairman Wicker, thank you for convening this hearing and for your 
leadership of the Helsinki Commission. This hearing could not be more 
timely.
    I have said before that Russia is violating every single one of the 
Helsinki Final Act's ten Guiding Principles between states. Many of us 
have drawn attention to Russia's violation of principles on sovereign 
equality, on territorial integrity and on the inviolability of borders. 
If I may, Mr. Chairman, today I'd like to put a little bit of a 
spotlight on Principle VI--``non-intervention in internal affairs.''
    Russia has long sought to counter discussion of human rights by 
claiming that raising human rights concerns is ``interference'' or 
``intervention'' in internal affairs. This, of course, is not true. In 
fact, the OSCE participating States explicitly agreed in 1991 that 
raising human rights issues is not interference in the internal affairs 
of other states.
    What does ``non-intervention in the internal affairs'' of other 
countries mean then? Well, when the participating States adopted 
Principle VI in the 1975 Helsinki Final Act, they were rejecting the 
Brezhnev Doctrine and the Soviet invasions of Hungary and 
Czechoslovakia. Principle VI expressly prohibits ``armed intervention 
or threat of such intervention against another participating State.'' 
That agreement was an important basis for building many of the 
subsequent agreements we were able to achieve in the OSCE, including 
many in the area of military security.
    But under President Putin, Russia has systematically undermined all 
of the security arrangements that peacefully ended the Cold War. When 
Russia invaded Georgia in 2008 and Ukraine in 2014, they not only 
violated this principle of the Helsinki Accords, they turned back the 
clock to the days of the Brezhnev era. In the Helsinki Final Act, the 
participating States pledged to refrain from making each other's 
territory the object of military occupation in contravention of 
international law. Today, Russia is manifestly violating that 
commitment.
    And the costs of Russia's aggression continue to mount. Some 10,000 
people have been killed in Ukraine and hundreds of thousands displaced. 
298 people were killed when Russian-backed separatists shot down the 
civilian flight MH17. A week ago, Joseph Stone, an American member of 
the OSCE Special Monitoring Mission in Ukraine was killed and two 
others, a Czech and a German national, were injured by a land mine in 
Russian-backed separatist controlled territory. I join you, Mr. 
Chairman, in expressing grief at this senseless loss of life and anger 
at those who are responsible.
    Russia is the greatest threat to the security of Europe and the 
United States. Accordingly, I welcome this hearing's examination of the 
Russian military threat, particularly in the context of the OSCE 
framework for confidence- and security-building, and I look forward to 
working with you and other members of the Commission to protect the 
security of the United States and our allies. I regret that there 
continue to be so many positions that the administration has yet to 
fill at a time when our country faces such acute threats and hope that 
the administration will move quickly to fill key senior positions in 
the State Department and Department of Defense.

Prepared Statement of Hon. Michael Burgess, Commissioner, Commission on 
                   Security and Cooperation in Europe

    In 2014, Russia used military force to breach the borders of 
Ukraine and annex Crimea. Despite an official ceasefire, known as Minsk 
II, Russia's actions and non-implementation of the ceasefire have 
produced a frozen conflict that has killed at least 10,000 people. This 
aggression directly violates the guiding principles of the Helsinki 
Final Act, including sovereign equality for member states, refraining 
from the threat or use of force, ensuring the territorial integrity of 
states, and non-intervention in internal affairs. In addition, Russia 
has been engaging in overt and covert subversive action in the media 
and in cyberspace domestically and across international borders in 
order to further an aggressive agenda.
    Russia has either violated or completely ignored provisions of the 
Treaty on Conventional Armed Forced in Europe, the Open Skies Treaty, 
the Vienna Document, and the Intermediate-Range Nuclear Forces Treaty. 
This posturing clearly indicates Russia's unwillingness to cooperate 
with its European neighbors to improve security. In fact, Russia views 
its security as directly proportional to the insecurity of its European 
neighbors.
    Vladimir Putin wants NATO to fracture and international 
organizations, such as the Helsinki Commission, to weaken in order to 
create the necessity of a new order that is not predicated primarily on 
Western influence. Putin is rebuilding Russia's national identity 
through military action. This activity is hurting the basic freedoms 
and human rights of Russian citizens, as well as threatening Russia's 
contiguous neighbors and NATO members.
    Recently, an American paramedic serving on the OSCE's Special 
Monitoring Mission in Ukraine was killed when his vehicle struck an 
explosive in separatist-held territory. This death was entirely 
preventable. Continued Russian military aggression in this region only 
increases the likelihood that more innocent lives will be taken. We 
must find a way to limit Russia's military aggression and bring balance 
back to the region.

  Prepared Statement of Dr. Michael Carpenter, Senior Director, Penn 
            Biden Center for Diplomacy and Global Engagement

        Note: The statements, views, and policy recommendations 
        expressed in this testimony reflect the opinions of the author 
        alone, and do not necessarily reflect the positions of the 
        Biden Center for Diplomacy and Global Engagement or the 
        University of Pennsylvania.

    Chairman Wicker, Co-Chairman Smith, and members of the Commission, 
thank you for this opportunity to speak with you today about the 
growing Russian military threat to European security.
    There is no question that the Putin regime today poses the greatest 
threat to the security of Europe, and to the United States as well. 
Over the last decade, the Kremlin has repeatedly demonstrated a 
willingness to use military force to violate international norms and 
commitments. Russia's invasions of Georgia in 2008 and Ukraine in 2014 
broke with the foundational principles of the postwar international 
order: sovereignty, territorial integrity, and the inviolability of 
borders. These principles were not only enshrined in the UN Charter and 
the Helsinki Final Act, which Moscow signed during the Soviet period, 
but they were also reaffirmed by Russia in the post-Cold War period in 
the Charter of Paris for a New Europe and the NATO-Russia Founding Act.
    In addition to its brazen violations of international norms, the 
Kremlin is today in breach of several important arms control treaties 
that affect European security. In 2007, Russia unilaterally 
``suspended'' its participation in the Conventional Forces in Europe 
Treaty, allowing Moscow to indirectly receive data provided by NATO 
countries (via its allies in the Collective Security Treaty 
Organization) without being required to reciprocate. Moreover, Moscow 
is covertly violating the Intermediate-Range Nuclear Forces (INF) 
Treaty by developing and likely soon deploying a prohibited ground-
launched cruise missile. Finally, Russia is violating the Open Skies 
Treaty by restricting other states' ability to fly over Kaliningrad, a 
strategically important and heavily militarized outpost that borders on 
two NATO Allies.
    When it comes to the Vienna Document and other transparency and 
confidence-building measures, Russia regularly undermines the spirit, 
if not the letter, of these arrangements. For example, the Russian 
General Staff often splits an exercise into several parts and/or 
creates artificial time-gaps between different parts of the exercise to 
bypass Vienna Document thresholds for notification and observation. 
Russia has also significantly increased the number of snap exercises--
four in 2013, 8 in 2014, 20 in 2015, and 11 in 2016--that fall outside 
the scope of the Vienna Document's notification procedures. Finally, 
Russia continues to unilaterally block proposed updates to the Vienna 
Document that would lower the thresholds for inspections and 
evaluations, a step all other OSCE participating States strongly 
support.
    Beyond the field of arms control, Russia has undermined a number of 
important political agreements affecting European security. These 
include the 1994 Budapest Memorandum, under which Ukraine gave up its 
nuclear weapons in return for a guarantee of its territorial integrity; 
the 2008 Medvedev-Sarkozy ceasefire agreement, under which Russia 
pledged to pull back its troops in Georgia to pre-conflict positions; 
and the September 2014 and February 2015 Minsk agreements, whose 
ceasefire provisions are regularly violated, as demonstrated by the 
more than 80 Ukrainians killed and over 450 wounded this year alone (in 
total, almost 10,000 people have been killed in this conflict).
    From its rampant abuse of Interpol ``red warrants'' to its 
disrespect for the fair competition standards of the International 
Olympic Committee, the Russian government has repeatedly demonstrated 
that its international commitments have almost no bearing on its 
behavior. Now is not the time to seek new commitments, but it is past 
time to take action so that Russia changes its behavior.

Russia's Collision Course with the West

    To best understand how to address Russia's failure to honor its 
international commitments, we first need to understand what is 
motivating the Kremlin's behavior.
    Put simply, the Putin regime believes the West poses the greatest 
threat to its survival and therefore seeks to push back against Western 
influence, including the spread of Western norms of transparency, 
accountability, and rule of law, which the Kremlin fears will undermine 
its kleptocratic and authoritarian system of rule. For much of the 
post-Cold War period this pushback was confined to the post-Soviet 
region, which Russian leaders referred to as their ``sphere of 
privileged interests.'' In the last few years, however, the Kremlin has 
taken the fight directly to the West. On an increasing number of 
levels, the Kremlin is actively seeking to subvert the foundations of 
Western liberal democracies and to undermine NATO on its own turf, as 
we clearly saw through Russia's cyber-attack and subversive operation 
during our presidential election campaign. Indeed, Russia's foreign 
policy has undergone a significant paradigm shift in the last five 
years: from the previous model of cooperating where possible and 
competing where necessary, to the current model of competing short of 
conflict across all domains, all the time.
    Recognizing that NATO possesses superior conventional military 
capabilities, Russia's ``grey zone'' conflict with the West relies 
primarily on unconventional tactics, unlike its conventional military 
interventions in Georgia and Ukraine. That is because Russia's 
leadership likely learned an important lesson from its wars in Georgia 
and Ukraine: namely, that while these conflicts set back both 
countries' Euro-Atlantic integration processes, neither of these 
interventions reversed the pro-Western orientations of their 
populations. As a result, the Kremlin now appears to be placing more 
emphasis on political subversion and covert influence operations, from 
Moldova to Montenegro and from Ukraine to the United States.

Investing in Full-Spectrum Capabilities

    While Moscow has recognized that its competition with the West 
requires a greater emphasis on unconventional tactics, Russian military 
strategists continue to invest in the full range of conventional and 
nuclear capabilities to deter adversaries and prevail in active 
conflicts. The Russian General Staff has spent the last decade and a 
half implementing serious military reforms that have produced a far 
more ready and capable fighting force.
    At the top end of the spectrum, Moscow is modernizing its nuclear 
triad: developing new ICBMs, advanced nuclear-powered submarines, and 
fifth-generation combat aircraft and new long-range bombers. In terms 
of conventional capabilities, Russia has fielded highly capable air and 
coastal defense systems for anti-access, area-denial (A2/AD) effects in 
Kaliningrad, Crimea, Japan's Northern Territories, and around large 
population centers like Moscow and St. Petersburg. It has developed and 
used sophisticated sea-launched cruise missiles. As we have seen in 
Ukraine, Russia has employed cutting-edge electronic warfare (EW) 
capabilities to suppress enemy Intelligence, Surveillance, and 
Reconnaissance (ISR) platforms while using its own EW-hardened ISR to 
target opposing forces with precision fire. Though using slightly older 
technology, Russia's conventional doctrine also calls for extensive and 
highly effective use of multiple rocket launch systems and artillery, 
which have together accounted for more than 90 percent of the 
casualties in Ukraine. Finally, on the covert end of the spectrum, 
Russia has honed a variety of unconventional capabilities that include 
cutting-edge cyber, proxy, and information warfare, as well as the 
weaponization of corruption for purposes of political subversion.

Cultivating Belligerence, Unpredictability, and Non-Transparency

    Russia relies on its status as a nuclear power to deter and instill 
fear of escalation among its adversaries. Russia's ``escalate to de-
escalate'' doctrine allows for first use of a nuclear weapon to compel 
adversaries to settle a conflict on Moscow's terms rather than to fight 
on or escalate the conflict. Under this doctrine Russia could, for 
example, use a tactical nuclear weapon for a first-use ``demonstration 
effect.'' If used in a conflict with a NATO Ally, however, this could 
have the exact opposite of its intended effect and prove dangerously 
escalatory, with devastating consequences for all parties. The Trump 
administration would therefore do well to consider a new round of 
strategic stability talks with Russia to bring to Russia's attention 
such doctrinal miscalculations.
    Another goal of Russia's evolving military doctrine is to use 
denial, deception, unpredictability, and lack of transparency to 
maximize Russia's asymmetric tactical advantages. The Kremlin's 
numerous violations of arms control and confidence- and security-
building measures (CSBMs) are therefore part of a very deliberate 
strategy, and one that takes full advantage of the clear asymmetry in 
the desire for transparency between Russia and Europe.
    This deliberate erosion of transparency and trust on Russia's part 
is coupled with nuclear threats against NATO Allies and dangerous 
military behavior whose purpose is to intimidate. The threats to target 
Denmark or Romania with nuclear weapons and the highly unprofessional 
and unsafe intercepts of NATO aircraft and vessels over/on the Black 
and Baltic seas fall into this category. Earlier this month, for 
example, a Russian fighter intercepted a U.S. P-8A aircraft flying over 
the Black Sea at a distance of only 20 feet, endangering the lives of 
both American and Russian aircrews. While these dangerous activities 
have led some European countries to recommend new crisis management 
measures such as an agreement to keep transponders on at all times, 
such proposals completely miss the point. Transponders or new 
navigational rules will do nothing to solve the problem because these 
incidents are not accidents resulting from the excessive bravado of 
individual pilots. They are deliberate policy choices and will continue 
so long as Moscow thinks it can intimidate NATO countries into scaling 
back their operations in certain theaters, such as the Black and Baltic 
seas.

Policies to Respond to an Aggressive Russia

    The range of aggressive and subversive actions that Russia is 
pursuing across Europe demands a firm but proportionate response. Given 
Russia's ongoing violations of the fundamental principles of the NATO-
Russia Founding Act, the United States should finally consider 
unilaterally declaring a ``suspension'' of its pledge not to deploy 
``substantial combat forces'' to NATO Allies in Eastern and Central 
Europe. The current situation in which Russia violates almost every one 
of its Founding Act pledges while NATO meekly declares its continued 
compliance with the Act--and thereby creates a ``second-class'' status 
for our eastern Allies--creates an incentive for the additional buildup 
of Russian troops on its western border. To compensate for this 
imbalance, the United States should deploy an additional Brigade Combat 
Team to Eastern Europe as a deterrent force, while clearly messaging 
that this deployment could be reversed if and when Russia's aggressive 
posture in the region changes. At the same time, the United States 
should declare that for now it is reaffirming its commitment to the 
Founding Act's three ``nuclear no's,'' namely the commitment that NATO 
has ``no intention, no plan, and no reason'' to deploy nuclear weapons 
to the eastern flank of the Alliance.
    Second, the United States must signal that it will employ the legal 
principle of countermeasures to respond to Russia's violations of the 
Open Skies and INF treaties. Just as Russia denies access under the 
Open Skies Treaty to the exclave of Kaliningrad, the United States 
should immediately choose an analogous region (e.g. Hawaii or Alaska) 
where it can mirror Russian restrictions until Moscow returns to 
compliance with the treaty. The Departments of State and Defense should 
also more forthrightly communicate to our Allies our concern with 
Russia's ability to use the Open Skies Treaty to collect information on 
NATO's critical infrastructure. Although many of our Allies greatly 
value the transparency the treaty provides, in many respects this 
transparency is of marginal benefit to the United States. Our Allies 
must therefore understand that the risks to U.S. national security 
inherent in the intrusive treaty procedures are beginning to outweigh 
its benefits.
    Similarly, the United States has spent considerable time seeking 
unsuccessfully to convince Moscow to return to compliance with the INF 
treaty. It is now time for the United States to apply the doctrine of 
countermeasures to immediately begin research (which is not prohibited 
by the treaty) into the development of an intermediate-range missile 
that would match Russia's new capability. The Pentagon should also be 
tasked with implementing other defensive measures to deny Russia any 
advantage from its violation of the treaty. Finally, we must also 
accelerate our diplomatic efforts with Allies to underscore that the 
United States cannot continue to stand by indefinitely as Russia 
develops a new and extremely dangerous military capability.
    Third, strengthening Ukraine's sovereignty must be a central 
element of the U.S. response to Russian aggression in Europe. The 
current de facto arms embargo on Ukraine should be lifted immediately 
and defensive armaments should be provided to allow Ukraine to harden 
its defenses against further Russian aggression. U.S. security 
assistance should focus on air defense, anti-armor, and counter-
artillery/mortar capabilities as well as more robust intelligence 
sharing. If the United States took the lead, a number of our NATO 
Allies would almost certainly follow suit and send excess stocks of 
non-NATO standard weapons to Ukraine to make up for the losses that 
Ukraine has sustained during the war.
    The United States must also insist on joining France and Germany in 
the ``Normandy format'' negotiations between Russia and Ukraine in 
order to participate in the development of a detailed roadmap with 
concrete timelines for implementing the Minsk agreements. The United 
States must be prepared to back up such a roadmap with concrete 
consequences for Russia's failure to implement the necessary steps, for 
example by unilaterally applying blocking sanctions on select Russian 
financial institutions. U.S. and EU sanctions have so far been too 
blunt of an instrument to affect incremental policy decisions because 
they have not been tied to any specific benchmarks other than the full 
implementation of the Minsk agreement, for which they are too weak to 
shift the Kremlin's calculus. Full blocking sanctions on select Russian 
financial institutions would have an immediate and significant effect 
even if the U.S. were to apply them unilaterally, and could help 
incentivize Moscow's withdrawal of troops from the Donbas if calibrated 
to match appropriate benchmarks for the implementation of the Minsk 
agreements.
    In the near term, the United States should also seek to upgrade the 
OSCE Special Monitoring Mission in Ukraine or even consider the 
creation of an armed UN mission. Following the April 23 killing of an 
American OSCE monitor with a roadside mine, the OSCE has significantly 
cut back its patrols in the separatist-controlled areas. These unarmed 
patrols were never properly outfitted for the mandate they were given 
and from the very start monitors have only been able to patrol during 
daylight hours. The personnel of the Special Monitoring Mission have 
performed heroically under these circumstances and have repeatedly 
taken on enormous personal risks to monitor compliance with the Minsk 
agreements. However, the current situation is no longer tenable. The 
OSCE Structured Dialogue on European security should take up the issue 
of a larger and more robust monitoring mission as a matter of 
precedence and urgency.

Responding to Russia's Cyber-Attacks on the West

    In response to the cyber-attacks and information warfare that the 
Kremlin has perpetrated against the United States and other Western 
democracies, the United States must rally its Allies to impose serious 
consequences for Russia's aggressive behavior. The response thus far 
has been weak and ineffectual. The declaration of 35 Russian officials 
as persona non grata and the prohibition on Russian use of intelligence 
gathering facilities in the United States is a mere slap on the wrist 
and does not serve as a deterrent against future cyber-attacks.
    Given reports of Russia's extensive penetration of U.S. and Allied 
government networks, the United States must invest significantly more 
resources in cyber defense. Most importantly, Congress should legislate 
regulations to force the private sector companies that control our 
critical infrastructure to adopt a common set of cyber defense 
standards. As last week's ransomware attack demonstrates, the private 
sector networks that run our critical infrastructure are extremely 
vulnerable. The Pentagon should also increase its support for cyber 
defense of our most vulnerable 
Allies.
    Finally, the United States must immediately appoint an independent 
Special Prosecutor to determine whether or not there was collusion or 
cooperation between the Russian government and campaign representatives 
in the last U.S. presidential election cycle. It must also establish a 
Select Committee to look at the broader question of Russian 
interference in the U.S. electoral process and Russia's ability to 
penetrate our critical infrastructure networks. The failure to take 
these steps damages not just U.S. national security but also 
transatlantic security. If the Kremlin's successful execution of one of 
the most audacious subversive operations in history is not immediately 
countered, it will only embolden Russia to take similar actions in the 
future.

Conclusion

    Chairman Wicker, Co-Chairman Smith, and members of the Commission, 
the United States has not only a role to play, but an obligation to 
enhance deterrence and build resilience against Russian aggression and 
malign influence across the entire OSCE region from Vancouver to 
Vladivostok. It starts here at home, by taking Russia's subversive 
actions against the United States seriously and deploying the necessary 
tools to expose them and respond with the imposition of proportionate 
costs. We must also push back on Russia's violations of arms control 
and confidence-building agreements by implementing necessary 
countermeasures and denying Russia any advantage. Finally, we must get 
more actively involved in finding a solution to the Ukraine conflict by 
applying greater leverage against Moscow and strengthening Ukraine's 
defenses. The best disincentive for any future aggression against our 
partners and Allies is for the aggressor to finally understand that in 
the end the costs will outweigh the benefits.

  Prepared Statement of Stephen G. Rademaker, Principal, The Podesta 
                                 Group

    Chairman Wicker, Co-Chairman Smith, other members of the 
Commission, thank you for inviting me to testify at this hearing on the 
Russian military threat in Europe.
    I understand that my co-panelists will speak to Russian military 
actions in recent years that have seriously degraded the security 
environment in Europe--the Ukraine conflict in particular--and the role 
the OSCE can play in restoring security and trust in the region. I have 
been asked to assess Russia's record of compliance with the arms 
control and confidence-building agreements that are particularly 
relevant to security in Europe, including the Conventional Armed Forces 
in Europe (CFE) Treaty of 1990, the Open Skies Treaty of 1992, the 
Vienna Document on Confidence- and Security-Building Measures, 
originally adopted in 1990 and updated most recently in 2011, and the 
Intermediate-Range Nuclear Forces (INF) Treaty of 1987.
    I will briefly review the obligations arising under each of these 
agreements and discuss the degree to which Russia is currently living 
up to its obligations. I will then draw some overall conclusions about 
Russia's approach to these agreements, and the implications for the 
United States and our allies.

CFE Treaty

    The CFE Treaty was concluded in 1990 and entered into force in 
November 1992. It included as states party all members of NATO and the 
Warsaw Pact. For all of these states party, it imposed strict limits on 
the amounts of specified military hardware (called ``Treaty-Limited 
Equipment'' or ``TLE'') that they could deploy in specified areas in 
the treaty's area of application, which stretches from the Atlantic 
Ocean to the Ural Mountains. Following the treaty's entry into force, 
over 52,000 pieces of TLE were destroyed or converted by the United 
States, Russia, and other states party to the treaty.
    Underlying the treaty was the belief that the imbalance in 
conventional armed forces in Europe (which favored the Soviet Union and 
the Warsaw Pact during the Cold War) had created instability and fear 
on the Continent, and led NATO to rely increasingly on its nuclear 
deterrent. The concept of the treaty was that if this conventional 
imbalance could be eliminated, stability could be restored, and 
reliance on nuclear weapons diminished. In this sense, the CFE Treaty 
sought to ameliorate one of the principal causes of the nuclear arms 
race that emerged during the Cold War, and it provided a foundation for 
the dramatic reductions in strategic nuclear arms levels that have been 
negotiated between the United States and Russia following the end of 
the Cold War.
    Regrettably, in July 2007, President Putin ordered a ``suspension'' 
of Russian implementation of the treaty. The other states party have 
not recognized this suspension as a legally permissible step, and 
therefore all the other parties have continued to observe the treaty as 
between them. In 2011, however, the United States and its NATO allies 
(plus Georgia and Moldova) bowed to reality and accepted that Russia 
was not going to permit verification inspections under the treaty to 
take place on Russian territory. Accordingly, they ceased requesting 
inspections on Russian territory, and declared that they would cease 
implementation of their obligations to Russia.
    From the moment the treaty entered into force in November 1992, the 
Russian military deployments in Georgia and Moldova violated Article 
IV, paragraph 5 of the treaty, which prohibits a state party from 
stationing its ``conventional armed forces on the territory of another 
State Party without the agreement of that State Party.'' Russia's 2014 
military intervention in Ukraine compounded its non-compliance with 
this basic provision of the CFE Treaty. Russia is today stationing its 
conventional armed forces on the territory of not just two, but now 
three states party, without the consent of those states party, in 
violation of Article IV, paragraph 5 of the treaty.
    The United States has tried hard since 2007 to persuade Russia to 
return to compliance with the treaty, but to no avail. The fundamental 
problem is that Russia concluded more than a decade ago that the CFE 
Treaty was no longer serving its interests. Among other things, Moscow 
chafed at the treaty's so-called Flank Limits, which it believed 
constrained its ability to carry out military operations on Russia's 
periphery, for example, in Chechnya. Moscow was also unhappy that 
Georgia and Moldova were using the treaty to pressure Russia to 
withdraw unwelcome Russian forces from their territory. Following the 
Russian military intervention in Ukraine in 2014, Russia is now 
violating Article IV, paragraph 5 of the treaty in three states party, 
further diminishing the likelihood that it will return to compliance 
with the treaty.

Open Skies Treaty

    The Open Skies Treaty was signed in 1992, and created a regime for 
the conduct of observation flights over the territory of other states 
party. These flights use photography and other sensors to collect 
information about activities on the ground in the countries being 
observed. The collection of this information is intended as a 
confidence-building measure among the parties. There are today 34 
states party to the treaty, including the United States and Russia.
    Russia has continued to implement the Open Skies Treaty, but has 
unilaterally imposed restrictions on the conduct of observation flights 
over its territory that are legally inconsistent with the treaty and 
clearly intended to diminish the benefits of the treaty to the other 
states party.
    Perhaps most significantly for the United States, Russia has 
arbitrarily imposed a sublimit of 500 kilometers on the distance of 
observation flights out of one of its Open Skies airfields with respect 
to observation flights over the Kaliningrad Oblast. There is no legal 
basis in the treaty for imposing such a sublimit, and all other 
observation flights out of that airfield are subject to the treaty's 
standard distance limitation of 5500 kilometers. The practical 
consequence of this restriction is not to prevent observation of the 
Kaliningrad Oblast, but to require multiple flights to be able to 
observe the entire territory of that Oblast. This is, therefore, a 
legally ill-founded nuisance restriction aimed at discouraging 
observation of a piece of Russian territory that is of great interest 
to NATO, sandwiched as it is between NATO members Poland and Lithuania.
    Other examples of ill-founded Russian restrictions include:

    <bullet>  Minimum altitude restrictions--Russia imposes a minimum 
altitude restriction on observation flights over Moscow that limit the 
amount of data that can be collected. It previously imposed a similar 
restriction on flights over Chechnya, but lifted this restriction in 
early 2016.
    <bullet>  Restrictions on flights adjacent to Abkhazia and South 
Ossetia--Russia prohibits observation flights within 10 kilometers of 
its border with the Georgian regions of Abkhazia and South Ossetia.
    <bullet>  Improper invocation of force majeure--Russia has on 
occasion improperly invoked the concept of force majeure to make 
changes to observation flight routes, ostensibly due to ``VIP 
movements.''

    In addition, Russia has arbitrarily imposed a restriction on 
exercise by Ukraine of its rights under the treaty. The treaty entitles 
countries hosting observation flights to charge observing countries for 
such things as fuel, de-icing fluid, and ground and technical services 
for their aircraft, and the treaty provides a mechanism for submitting 
invoices for such costs and settling accounts at the end of each 
calendar year. In the case of Ukraine, however, Russia has insisted on 
payment in advance before any observation flight by Ukrainian aircraft 
from a Russian airfield. As a consequence, Ukraine's last solo 
observation flight over Russia was in 2014. Meanwhile Ukraine has 
conducted 20 observation flights over other states party since 2014 
with no issues in payment.
    Despite these problems, it should be noted that observation flights 
have continued over Russia, including the first-ever ``Extraordinary 
Observation Flight,'' requested by Ukraine pursuant to the treaty 
shortly after Russia's intervention in the Crimea, and carried out 
using a U.S. aircraft.
    Overall, therefore, while Russia continues to observe the Open 
Skies Treaty, it often does not do so in the full spirit of 
transparency that the treaty was intended to promote.

Vienna Document

    The Vienna Document on Confidence- and Security-Building Measures 
was first adopted under the auspices of the OSCE in 1990, and updated 
in 1992, 1994, 1999, and most recently in 2011. As with all previous 
versions of the Vienna Document, the latest version, Vienna Document 
2011 (VD11), is not a treaty, but rather an agreed set of transparency 
measures that all members of the OSCE have agreed to implement in order 
to increase confidence within the OSCE region. Among these measures are 
data exchanges, inspections, and notifications of certain military 
activities.
    The State Department's annual arms control compliance report for 
2016, released just last month, stated the following about Russia's 
compliance with VD11:

        The United States assesses that the Russian Federation's . . . 
        selective implementation of certain provisions of VD11 and the 
        resultant loss of transparency about Russian military 
        activities has limited the effectiveness of the CSBMs regime. 
        Russia's selective implementation also raises concerns as to 
        Russia's adherence to VD11.

    The report goes on to detail a number of ways in which Russia's 
behavior falls short of its obligations under VD11. These include:

    <bullet>  Russia's continued occupation and claimed annexation of 
Crimea, and support to and fighting with separatists in Eastern 
Ukraine, violates paragraph 3 of VD11, which reaffirmed Russia's 
commitment to refrain from the threat or use of force.
    <bullet>  Russia has failed to provide information on its military 
forces located in the Georgian regions of Abkhazia and South Ossetia, 
as well as on two Russian units located in Crimea.
    <bullet>  Russia has established a pattern of conducting military 
exercises without properly notifying them as required under VD11, 
ostensibly because they are ``snap exercises,'' or because it claims 
they are multiple activities under separate command, when to all 
appearances they are large-scale activities under unitary command. In a 
recent case in August 2016, Russia conducted an exercise involving over 
100,000 personnel, but only provided advance notice of an exercise 
involving 12,600 personnel.
    <bullet>  Russia has failed to provide data of several types of 
military equipment that is obligated to report under VD11, including 
the BRM-1K armored combat vehicle, the Su-30SM multirole fighter, and 
the Ka-52 attack helicopter.

    Further, Russia has in the past defied efforts by other parties to 
the Vienna Document to invoke the agreement's mechanism for 
consultations in the event of unusual military activities. When this 
mechanism was invoked with respect to Russia's activities involving 
Ukraine, Russia either failed to provide responsive replies to requests 
for an explanation of the activities, or, in some cases, boycotted 
meetings called to discuss the activities.
    Russia continues to permit other VD11 inspections and evaluations 
to take place on its territory, and continues to participate in data 
exchanges. But Russia's reporting practices--particularly with regard 
to the notification of military exercises--have given rise to 
suspicions that, at best, Russia is structuring its activities to evade 
VD11 reporting requirements, or, at worst, misrepresenting those 
activities in order to justify not reporting them. Its selective 
implementation of VD11 is contrary to the spirit of the agreement, and 
has diminished rather enhanced confidence among members of the OSCE.

INF Treaty

    The INF Treaty was concluded in 1987, and committed the United 
States and the Soviet Union to neither possess, produce, nor flight-
test ground-launched missiles with maximum ranges between 500 and 5500 
kilometers. Pursuant to the treaty, by May of 1991, the United States 
eliminated approximately 800 INF-range missiles and the Soviet Union 
eliminated approximately 1800 such missiles.
    Negotiated at the height of the Cold War, the INF Treaty 
contributed to security in the European theater, and was profoundly 
reassuring to the populations of some of our key NATO allies. It was in 
many ways a vindication of President Reagan's policy of promoting 
``peace through strength.''
    The Obama Administration announced in July of 2014 that it had 
``determined that the Russian Federation is in violation of its 
obligations under the INF Treaty not to possess, produce, or flight-
test a ground-launched cruise missile (GLCM) with a range capability of 
500 km to 5,500 km, or to possess or produce launchers of such 
missiles.'' The State Department's annual arms control compliance 
report for 2016, released just last month, reaffirmed that ``the 
Russian Federation continued to be in violation of its obligations 
under the INF Treaty.'' Substantially similar language was included in 
the State Department's arms control compliance reports published in 
2014, 2015 and 2016.
    The Obama and Trump Administrations have been somewhat cryptic in 
describing the precise nature of the Russian violation, due apparently 
to the need to protect intelligence sources and methods. According to 
reports that have appeared in the New York Times and Washington Post, 
the violation involves a new type of ground-launched cruise missile 
called the SSC-8, with a range between 500 and 5500 kilometers. When 
the Obama Administration first announced the violation in 2014, the 
missile reportedly had been flight-tested, but not yet deployed. Press 
reporting in February of this year claimed that the missile has now 
been operationally deployed and is in the possession of two Russian 
battalions. And while the Obama Administration only formally determined 
in 2014 that Russia was violating the treaty, it appears that the Obama 
Administration first came to suspect that Russia was violating the 
treaty in 2011, and the first test of this missile may have taken place 
several years earlier.
    The Obama and Trump Administrations have attempted to have a 
dialogue with Russia about correcting the violation of the treaty. This 
has been a sterile dialogue, however, with Russia professing not to 
even know what missile the United States is complaining about. This 
despite the fact that the United States has provided detailed 
information to Russia about the missile, including Russia's internal 
designator for the mobile launcher chassis, the names of the companies 
involved in developing and producing the missile and launcher, and the 
missile's test history, including the coordinates of the tests. So long 
as Russia persists in denying the existence of the missile in question, 
there appears to be little hope of resolving the violation.
    As with the CFE Treaty, Russia has long been unhappy living under 
the restrictions of the INF Treaty. The basic Russian complaint is that 
the treaty applies only to the United States and four successor states 
to the Soviet Union (including Russia), and therefore leaves every 
other country in the world free to produce and deploy INF-range 
missiles. Increasingly other countries are doing precisely that, 
including many countries located within striking distance of Russia, 
such as China, Iran, North Korea and Pakistan.
    It is a sad irony, of course, that missile technology proliferation 
from Russia contributed significantly to the missile programs of Iran 
and North Korea, and that North Korea in turn contributed to Pakistan's 
missile program. So in fact, Russia's complaint is in significant part 
of its own making.
    As early as 2005, Russian Defense Minister Sergei Ivanov raised 
with Secretary of Defense Donald Rumsfeld the possibility of Russian 
withdrawal from the treaty. President Putin lamented in 2013 that 
``nearly all of our neighbors are developing these kinds of weapons 
systems,'' and asserted that the decision to sign the treaty was 
``debatable to say the least.'' I know from my own conversations with 
Russian officials during my time in government that they would like to 
get out from under the INF Treaty.
    Certainly this underlying unhappiness with the INF treaty helps 
explain why Russia has been willing to violate it. In discussing how to 
respond to this violation, we need to recognize that Moscow would 
welcome a decision by the United States to terminate the treaty, 
because that would relieve them of the need at some point to do so. The 
Obama Administration's decision to leave the INF treaty in place 
despite Russia's testing of a missile prohibited under the treaty was 
no doubt motivated, at least in part, by a desire not to reward Russia 
for its violation. However, as the nature of the violation has shifted 
from testing a prohibited missile to operationally deploying that 
missile, the United States will find it increasingly hard to overlook 
the violation.

Concluding Observations

    A clear pattern emerges when one looks at Russia's implementation 
of its arms control obligations overall. Moscow will comply with such 
agreements so long as it judges them to be in Russia's interest. But to 
the degree Moscow concludes such agreements have ceased to serve its 
interest, it will seek to terminate them (CFE Treaty), violate them 
while continuing to pay them lip service (INF Treaty), or selectively 
implement them (Open Skies Treaty and Vienna Document).
    Such actions are, of course, destructive to the sense of confidence 
and security that CSBMs are intended to promote. But Russia believes 
that this is how great powers are entitled to act, and today Moscow 
insists on acting and being respected as a great power.
    The underlying problem appears to be the Russian leadership's 
belief that security in Europe is a zero-sum game; that gains in the 
security of Russia's neighbors can only come at the expense of Russian 
security, and that Russia can improve its security by diminishing the 
security of its neighbors. This mindset is, of course, completely 
contrary to the premise of the existing arms control and CSBM 
architecture of Europe, which holds that security in Europe is a 
positive-sum game, and that all countries will be more secure to the 
degree their neighbors are also more secure.
    We have a new President who came to office determined to work out a 
new and more positive relationship with Russia. He appears to believe--
correctly in my view--that there are no fundamental conflicts between 
America's vital national interests and Russia's. The greatest 
challenges to both of us are the same, including the threats of 
jihadism and a rising China that increasingly sees itself as a hegemon 
in Asia, if not beyond. Indeed, one could argue that, comparing 
Russia's geography to our own, these are even greater threats to Russia 
than to the United States.
    Viewed through the prism of core national interests, it is indeed a 
great tragedy that the United States has been unable to establish a 
stronger security partnership with Russia since the end of the Cold 
War. We can content ourselves that the fault for this lies much more on 
the Russian side than on our side, but pointing fingers does not move 
us closer to building the kind of partnership our shared core interests 
suggest we should have. So it is my hope that President Trump succeeds 
in persuading the Russian leadership that security in Europe is in fact 
a positive sum game, and that Russia will be safer and more secure to 
the degree its immediate neighbors in Europe are also more secure.
    Whether it happens during the Trump Administration, or at some 
point further in the future, I am confident that Russia eventually will 
discover that its true national interests lie in cooperating with the 
other members of the OSCE rather than seeking to intimidate them. Until 
that time comes, however, we must be clear-eyed about the challenges we 
face. We have to deal with Russia as it is, rather than how we wish it 
to be.
    I thank you for holding this hearing, and look forward to 
responding to your questions.

   Prepared Statement of Ambassador Stephen Pifer, Senior Fellow and 
  Director of the Arms Control and Non-Proliferation Initiative, The 
                         Brookings Institution

The Growing Russian Military Threat in Europe-Assessing and Addressing 
        the Challenge: The Case of Ukraine

Introduction

    Mr. Chairman, Co-Chairman Smith, members of the Commission, thank 
you for the opportunity to appear today to testify on the growing 
Russian military threat to Europe and how that threat has manifested 
itself in Ukraine.
    From the perspective of the 1975 Helsinki Final Act, Russia's 
military aggression against Ukraine has been the most shocking 
development in Europe since the end of the Cold War and collapse of the 
Soviet Union. The Russian seizure of Crimea in March 2014, followed by 
its illegal annexation, violated fundamental principles of the Final 
Act. Those principles include the commitment of participating states to 
respect each other's sovereignty, territorial integrity and 
independence, and to refrain from the threat or use of force against 
the territorial integrity or independence of any state. The principles 
also include the principle that borders can be changed only by peaceful 
means and agreement. Russia's actions in Crimea have violated all of 
those commitments.
    The Kremlin did not stop with Crimea. Russia military and security 
service personnel have been deeply engaged in the Donbas region of 
eastern Ukraine since April 2014, where fighting has claimed some 
10,000 lives. Russian involvement in the Donbas has included the 
provision of leadership, financing, ammunition, heavy weapons, supplies 
and, in some cases, regular units of the Russian army to support armed 
separatism against the Ukrainian government, also in violation of 
Russia's Final Act commitments.
    Unfortunately, and despite the efforts of the leaders of Germany 
and France, the conflict in Donbas shows no sign of settlement. There 
is little evidence to suggest that Russia and the separatist forces 
under its control want to end the conflict. The Kremlin appears to see 
value in maintaining a simmering conflict as a means to put pressure on 
and destabilize the government in Kyiv, in order to make it harder for 
Ukraine to get on with needed domestic reforms and implement its 
association agreement with the European Union.
    It is important for European security that the United States and 
the West support Ukraine and stand up to Russia. It would be a mistake 
to let the Kremlin conclude that the kind of tactics it has employed 
against Ukraine could be applied elsewhere against another member of 
the Organization for Security and Cooperation in Europe (OSCE).

Russia's Goals in Europe and Ukraine

    In the 1990s and early 2000s, many analysts assumed that Russia 
wanted to work in a cooperative manner with the United States and 
Europe and, if not integrate into, develop cooperative relationships 
with key European and trans-Atlantic institutions such as the European 
Union and NATO. In recent years, however, it has become clear that 
Russian President Vladimir Putin and the Kremlin leadership have chosen 
a different course. They appear to have concluded that the European 
security order that developed in the aftermath of the Cold War 
disadvantages Russian interests. They have sought to undermine that 
order and define Russia in opposition to the United States and the 
West.
    Russia is pursuing several goals in Europe. First, the Kremlin 
seeks a Russian sphere of influence--or a ``sphere of privileged 
interests,'' as then-President Dmitry Medvedev called it in 2008--in 
the post-Soviet space, with the possible exception of the Baltic 
States. Mr. Putin does not seek to recreate the Soviet Union, as the 
Russian economy is not prepared to subsidize the economies of the other 
former Soviet states. What the Russian leadership wants from its 
neighbors is that they defer to Moscow on issues that the Kremlin 
defines as key to Russian interests. This includes relationships 
between those states and institutions such as the European Union and 
NATO, despite Russia's commitment under the Final Act to respect the 
right of other states to choose to belong to international 
organizations and to be party to treaties of alliance.
    Second, Moscow seeks to weaken the European Union and NATO, which 
it believes act as checks on Russian power. Russian security doctrine 
openly regards NATO as a threat. Mr. Putin appears to hold a particular 
grievance against NATO. He asserts that the Alliance began enlarging in 
the early 1990s in order to take advantage of Russian weakness and 
bring military force to Russia's borders. His narrative ignores NATO's 
efforts to engage Russia in a cooperative manner as well as the 
commitments undertaken by the Alliance with regard to the non-
stationing of nuclear and conventional forces on the territory of new 
member states, commitments made to ease Russian concern about NATO 
enlargement.
    The Kremlin also regards the European Union and its enlargement as 
a threat. Indeed, the Russian pressure that began on Ukraine in 2013 
was not due to that country's relationship with NATO. Then-President 
Victor Yanukovych had renounced the goal of securing a NATO membership 
action plan, and key Alliance members such as Germany and France had 
made clear that they did not support putting Ukraine on a membership 
track. What spurred Russia to increase its pressure was the prospect 
that Ukraine--even under Mr. Yanukovych--might conclude an association 
agreement with the European Union.
    Third, the Kremlin seeks a seat at the table when major questions 
regarding Europe are decided. This explains in part Russia's opposition 
to the European Union and NATO; Russia does not belong to those 
institutions. While Russia is a member of OSCE, it has devalued the 
status of the organization over the past two decades, regularly calling 
into question its mission and, at times, even its legitimacy.
    Russia's more assertive and belligerent stance in Europe over the 
past five years has been abetted by the modernization of Russian 
military forces, both nuclear and conventional. Much of the 
modernization of Russian strategic nuclear forces appears to be 
replacing old weapons systems with new versions--in some cases, systems 
Moscow might have replaced years ago had it then had the finances. The 
overall strategic modernization program appears sized to fit within the 
limits of the 2010 New Strategic Arms Reduction Treaty.
    More worrisome, particularly for European security, are Russia's 
deployment of a new ground-launched intermediate-range cruise missile 
in violation of the 1987 
Intermediate-range Nuclear Forces Treaty, its modernization of an array 
of other non-strategic nuclear weapons, and its apparent ``escalate to 
de-escalate'' doctrine. Formal Russian doctrine suggests that Russia 
would resort to use of nuclear weapons in the event that nuclear or 
other weapons of mass destruction were used against Russia or an ally, 
or in the event of a conventional attack on Russia in which the 
existence of the Russian state is at stake. There have, however, been 
suggestions that Moscow might entertain the notion that it could use 
nuclear weapons to ``de-escalate'' a conventional conflict that did not 
involve an attack on Russian territory, for example, after a Russian 
conventional attack on another country.
    Russia is also modernizing its conventional military forces. While 
much of this appears to be replacing old with new, the Russian military 
clearly aims to enhance its ability to conduct offensive operations 
outside of Russian territory, spurred in part by a desire to improve on 
the mediocre performance of Russian forces in the 2008 Georgia-Russia 
conflict. Over the past three years, it appears that Russia has 
deployed and operated a number of its new conventional weapons systems 
in Ukraine.

Domestic Drivers of Russian Policy toward Ukraine

    Domestic political factors constitute major drivers of Russian 
policy toward Ukraine. For the Kremlin, regime preservation is job 
number one. During his first two terms as president in 2000-2008, Mr. 
Putin based regime legitimacy on economics--at a time when the Russian 
economy was growing at a rate of about seven percent per year. However, 
when he prepared to return to the presidency in 2011, Russia faced a 
grim economic situation. Accordingly, Mr. Putin included heavy elements 
of nationalism, Russia's return as a great power, and anti-Americanism 
in his campaign. Those themes now appear the basis for regime 
legitimacy, and it is likely that they will feature in Mr. Putin's 
campaign for reelection in March 2018.
    Those themes in turn drive aspects of Moscow's foreign policy, and 
they play in particular with regard to Ukraine. From 1654 until 1991, 
Ukraine was a part of the Russian Empire and then the Soviet Union, 
with the exception of a few years after World War I. Of all the 
republics that Moscow lost when the Soviet Union collapsed, Ukraine's 
loss pains Russians the most. Many Russians consider Ukraine ``little 
Russia.'' Indeed, when he made his last visit to Kyiv in summer 2013, 
Mr. Putin referred to Russians and Ukrainians as one people--to the 
unhappiness of many Ukrainians, who felt that he thereby denied their 
history, language and culture.
    Mr. Putin, moreover, appears to fear that a successful Ukraine 
could affect the attitudes of the Russian people. If Ukraine succeeds 
in building a stable, modern, democratic state with a robust market 
economy, Russians may begin to wonder why they cannot have a more 
democratic form of governance in place of the increasingly 
authoritarian power structure that has developed in Russia over the 
past seventeen years. While Mr. Putin enjoys high approval ratings--
typically in the 70-80 percent range--the Kremlin seems constantly 
nervous about its hold on the Russian public. The Kremlin thus does not 
want a successful Ukrainian neighbor and is prepared to go to great 
lengths to hinder that success, including the use of military force.

The Maydan and Russia's Illegal Seizure of Crimea

    In February 2014, the violent end of the Maydan Revolution, Mr. 
Yanukovych's decision to flee Kyiv, and the Rada (Ukraine's parliament) 
vote to appoint an acting president and acting prime minister who made 
drawing closer to the European Union Ukraine's top foreign policy 
priority caught Moscow by surprise. The Kremlin reacted quickly.
    Mr. Putin told a Russian documentary a year later that he decided 
early on the morning of February 23 to activate a plan to seize the 
Crimean peninsula. Shortly thereafter, soldiers in Russian-style combat 
fatigues--but lacking identifying insignia--began to occupy key 
installations and crossroads on the peninsula. The soldiers were 
clearly professional military, as evidenced by how they handled their 
weapons and themselves.
    Ukrainians dubbed these soldiers ``little green men.'' Asked on 
March 4 whether the soldiers were Russian, Mr. Putin denied they were, 
describing them as ``local self-defense forces.'' Asked about their 
Russian combat fatigues, he replied that one could find those in 
military surplus stores across the former Soviet Union. On March 28, 
however, Mr. Putin congratulated Russian military officers on their 
conduct of the Crimean operation. In a May 18 telethon, he admitted 
that the ``little green men'' had been Russian soldiers. The Ministry 
of Defense issued a medallion commemorating the Russian military's role 
in the ``return of Crimea,'' an operation which the medallion dated as 
running from February 20 (three days before Mr. Putin said he ordered 
Crimea's seizure) through March 18.
    Russia's swift seizure of Crimea was aided particularly by two 
factors. First, there were already substantial Russian military forces 
and infrastructure on the peninsula, deployed there per agreement with 
Ukraine at bases and facilities for the Russian Black Sea Fleet and 
supporting units. Second, Ukrainian military forces stayed in garrison 
and did not challenge the Russians, reportedly in part due to urgings 
from Washington that Ukraine do nothing to provoke Russian escalation. 
As many soldiers in the Ukrainian units were from Crimea, commanders 
likely had questions about their unit's reliability.
    By March 6, Russian forces had control of all major locations in 
Crimea, had blocked Ukrainian forces in their bases, and had laid a 
minefield to cordon off the peninsula from the Ukrainian mainland. 
Under the leadership of a newly appointed prime minister who reportedly 
was once known as the ``Goblin'' in local organized crime circles, the 
Crimean parliament voted to join Russia and to schedule a referendum. 
That referendum, conducted on March 16, offered two choices: to join 
Russia, or to reinstate Crimea's 1992 constitution, which would have 
granted the peninsula substantially greater autonomy from Kyiv. Those 
who wanted Crimea to remain a part of Ukraine under the existing 
constitutional arrangement found no box to check.
    Crimean authorities reported that 83 percent of eligible voters 
took part in the referendum, with nearly 97 percent voting to join 
Russia. Few found the result credible. There were numerous reports of 
irregularities, armed personnel near voting stations, and journalists 
with Russian passports allowed to vote. Other estimates indicated a 
much smaller voter turnout than that reported by Crimean and Russian 
officials. According to a report that appeared later on the website of 
the Russian president's human rights ombudsman, only 30-50 percent of 
the Crimean electorate actually took part in the referendum, with only 
50-60 percent of those choosing to join Russia.
    In any event, Crimean representatives and Russian officials two 
days later concluded a treaty on Crimea joining Russia. The Russian 
Federal Assembly ratified the treaty on March 21. The annexation of 
Crimea proved very popular with the Russian public, and it gave a boost 
to Mr. Putin's approval rating. He apparently remembers that; the 2018 
presidential election in Russia has been scheduled for March 18, the 
fourth anniversary of the treaty on Crimea joining Russia.
    The United States and European Union responded to Crimea's illegal 
annexation by applying visa and financial sanctions on individuals 
connected to the seizure. The leaders of the United States, Canada, 
France, Germany, Italy, Japan and United Kingdom agreed to exclude 
Russia from the G8 and revert to the G7. President Barack Obama signed 
an executive order to enable broader sanctions against the energy, 
financial and defense sectors of the Russian economy.

Russia's Involvement in the Donbas

    Russia did not stop with Crimea. In early April 2014, ``little 
green men'' appeared along with armed local separatists in several 
major cities in eastern Ukraine, particularly in the Donbas region of 
Donetsk and Luhansk. In contrast to Crimea, this time Ukrainian 
security forces resisted, and fighting broke out in several locations.
    The U.S., Russian and Ukrainian foreign ministers, joined by the 
European Union's high representative for common foreign and security 
policy, met in Geneva on April 17 and agreed on a settlement that 
called for an end to the violence, the disarming of illegal armed 
groups, and the evacuation of occupied public buildings. The settlement 
also called on OSCE to monitor the agreed measures. Separatist leaders 
in Donbas, however, immediately indicated that they would not observe 
the Geneva terms.
    The fighting continued and spread, with the separatist forces 
gaining control of more of the Donbas. Russia provided leadership, 
financing, ammunition, heavy weapons and other supplies. In addition, 
``political tourists'' began arriving from Russia to swell the ranks of 
the separatist fighters. While the separatists at first claimed they 
got their heavy weapons by seizing them from Ukrainian forces, 
equipment showed up in their ranks that had never been in the Ukrainian 
military's inventory but was in the Russian military's inventory.
    The United States began to impose additional sanctions on Russia, 
as fighting in the Donbas continued and spread further. On the 
battlefield, however, Ukrainian forces began to gain the upper hand 
during the early summer. Russia responded by accelerating the flow of 
tanks, armored personnel carriers, artillery, advanced anti-aircraft 
systems and ``volunteers'' to assist the separatists.
    The anti-aircraft systems provided by Russia included the Buk (SA-
11) surface-to-air missile that shot down a Malaysia Airlines Boeing 
777 on July 17 over the occupied part of the Donbas. All of the nearly 
300 passengers and crew perished. A separatist leader almost 
immediately claimed credit for downing a Ukrainian military transport 
plane at the same time and location of the Malaysia Airlines shootdown. 
It appears that the separatist forces fired on the civilian airliner by 
mistake. Reports and photos that were issued later tracked the Buk 
missile launcher through territory occupied by the separatists, 
including the transport of the 
launcher--minus one missile--back in the direction of Russia.
    In the aftermath of the shootdown, the United States and European 
Union adopted substantial new sanctions against Russia. These included 
sanctions aimed at the financial, energy, high tech and defense 
sectors.
    Ukrainian forces continued to make progress. By mid-August, they 
had greatly reduced the amount of territory under Russian/separatist 
control, had split that territory into two pockets, and appeared on the 
verge of regaining control of all of the Donbas. On or about August 23, 
however, regular units of the Russian army, supported by heavy 
artillery and rocket strikes, entered Ukrainian territory and dealt a 
severe blow to Ukrainian forces. They inflicted heavy casualties on the 
Ukrainians and, by some estimates, destroyed 50-70 percent of the armor 
deployed in the area by the Ukrainian army. The Russian/separatist 
attack recovered much of the territory that had been lost in the two 
previous months.
    Ukrainian representatives met with officials of the so-called 
Donetsk and Luhansk ``people's republics'' in Minsk on September 5 and 
worked out a ceasefire in the presence of Russian and OSCE officials. 
However, the ceasefire never took full hold, with particularly sharp 
fighting continuing around the Donetsk airport and in areas east of 
Mariupol, on the Sea of Azov. By the beginning of 2015, Russian/
separatist forces had seized roughly 500 square kilometers of territory 
beyond the September 5 ceasefire line.
    After a December lull, fighting accelerated again in January and 
early February 2015. At that time, NATO military officials estimated 
that 250-1,000 Russian military and military intelligence officers were 
in the occupied part of the Donbas, providing command and control and 
serving as advisors and trainers to the separatists as well as to 
``volunteers'' from Russia. NATO officials believed that Russian 
personnel also operated the more sophisticated Russian military 
equipment. At that point, NATO did not believe that Russia had regular 
military units in Ukraine but noted that some 50,000 Russian troops had 
been deployed on the Russian side of the Ukraine-Russia border.
    Ukrainian sources had a different estimate. They believed that 
Ukrainian forces faced a total of 36,000 Russian troops and separatist 
fighters in the Donbas. Of that total, the Ukrainians believed that 
5,000-10,000 were Russian soldiers, though the bulk of the separatist 
fighters were Ukrainian citizens.
    In February 2015, German Chancellor Angela Merkel and French 
President Francois Hollande brokered a settlement agreement between 
Ukrainian President Petro Poroshenko and Mr. Putin. That agreement--
often referred to as the Minsk II accord--provided for a ceasefire, 
withdrawal of heavy weapons from the line of contact, and access for 
OSCE monitors to confirm the ceasefire and withdrawal. Minsk II also 
contained a number of additional measures designed to resolve the 
conflict and restore Ukrainian sovereignty over the Donbas, including 
withdrawal of all foreign forces, passage of a constitutional amendment 
on decentralization of political authority, an election law for the 
occupied region, a status law for the Donbas, and restoration of 
Ukrainian control of the full Ukraine-Russia border. The terms of Minsk 
II are clearly less favorable to Ukraine than the terms worked out in 
Minsk I in September 2014--in effect, a reward to the Kremlin for not 
observing the Minsk I agreement.
    Minsk II got off to an inauspicious start. Russian and separatist 
forces launched a major assault on Ukrainian units in the Debaltsevo 
salient between the cities of Donetsk and Luhansk. They ratcheted down 
the fighting after capturing the territory but, as with the September 
2014 ceasefire, the Minsk II ceasefire never really took hold--despite 
numerous subsequent attempts to negotiate a sustainable ceasefire.
    A familiar pattern emerged over the next two years: shelling and 
fighting along the line of contact would flare up, followed by lulls 
and newly negotiated ceasefires, which never held and sometimes never 
even took effect. While both sides committed ceasefire violations, 
observers have attributed primary responsibility for violations to 
Russian/separatist forces.
    As in the early days after the Crimean operation, Mr. Putin and the 
Kremlin deny there are any Russian military personnel in the Donbas--
despite pictures of heavy weapons known only to be in the Russian 
inventory, the capture of Russian military personnel by Ukrainian 
forces, and the spotting by OSCE observers and Russian television of 
soldiers in Russian uniforms with Russian insignia. The Kremlin instead 
implausibly claims that all the separatist fighters are locals or 
``volunteers'' from Russia.
    NATO believes that the command structure for Russian/separatist 
forces in the occupied Donbas continues to consist of Russian military 
officers, while irregulars form the bulk of the armed personnel, though 
they have been and can be augmented by regular Russian army units if 
needed. The Ukrainian security service says that it has identified 
specific Russian military officers who occupy command positions in the 
forces of the so-called Donetsk and Luhansk ``people's republics.'' The 
Ukrainian military and security service continue to believe that a 
larger portion of the fighters in the Donbas are active-duty Russian 
military personnel and that some are in organized Russian units.
    Shelling and fighting continue along the line of contact in the 
Donbas. On most days, the Ukrainian military reports suffering killed 
and/or wounded in action.
    The line of contact between Ukraine and the occupied part of the 
Donbas appears to be hardening. Leaders of the Donetsk and Luhansk 
``people's republics'' have said that they will not permit a 
restoration of Ukrainian sovereignty--even though that is a central 
objective of Minsk II. The two statelets use the Russian ruble as their 
currency and have begun issuing passports, which the Russian government 
recognizes. On the other side, Ukraine has imposed a trade embargo on 
occupied Donbas and cut off the supply of electricity to the occupied 
part of Luhansk. This hardening of the line of contact will make it 
more difficult to achieve an eventual settlement.
    The United States and European Union have regularly renewed 
sanctions on Russia and maintained a common line. Chancellor Merkel has 
repeatedly stated that full implementation of Minsk II is the 
prerequisite for easing sanctions, a position echoed by the Obama 
administration and, in its first months, by Trump administration 
officials.

What is Russia Seeking in Ukraine

    By all appearances, the Kremlin is not implementing the Minsk II 
agreement and, at this point in time, apparently calculates that a 
simmering conflict in the Donbas better serves its interests. Such a 
conflict makes it more difficult for the government in Kyiv to pursue 
needed political and economic reforms or to implement the association 
agreement with the European Union. That is, it makes it harder for 
Ukraine to become a successful state and deepen links that will keep it 
out of a Russian sphere of influence.
    Moscow is clearly unhappy about Western economic sanctions, yet it 
has eschewed steps that would lead to their easing. For example, it 
would not be difficult for the Kremlin to enforce a real ceasefire, 
given its control over Russian/separatist forces in the Donbas. It 
could also implement a withdrawal of heavy weapons away from the line 
of contact. If the Russians feared that the Ukrainian military might 
try to take advantage of the situation, they could visibly position 
additional Russian military units along the Russia-Ukraine border as a 
deterrent. Having implemented the ceasefire and withdrawal steps, OSCE 
monitors could then be invited to travel freely around the occupied 
part of the Donbas to confirm that the measures had been implemented.
    Were the Kremlin to take these steps, the focus for implementation 
of Minsk II would shift to Kyiv. Political and public attitudes have 
understandably hardened over the past two years due to the continued 
fighting and casualties. The Ukrainian government could well find that 
it would have a difficult time implementing certain Minsk II 
provisions, such as the passage of a constitutional amendment on 
decentralization or an election law for the Donbas. If Ukraine could 
not deliver on those provisions, the stage would be set for Moscow to 
make a bid for the easing of sanctions on Russia.
    Why has the Kremlin not taken such a step? The most plausible 
reason would appear to be that the Russians fear that Ukraine might be 
able to do its part to implement Minsk II. A settlement of the Donbas 
conflict at this point, however, does not appear to be a Kremlin 
objective. The Russian leadership instead sees advantages to 
maintaining a simmering conflict that it can use to put pressure on and 
destabilize the government in Kyiv.
    The Russian leadership may have other reasons for holding to its 
present course. While Moscow was disappointed by election outcomes 
earlier this year in the Netherlands and France, Germany holds its 
elections in September. Polls indicate that Ms. Merkel remains the most 
popular politician, and her victory appears increasingly likely, but 
she is running for reelection for a fourth term at a time when many 
Western voters seek change. Ms. Merkel has provided the linchpin for 
European Union policy toward Russia and Ukraine, and the Russians no 
doubt would welcome her departure from office. That election gives 
Moscow an incentive to wait, in hopes that a change in Berlin might 
lead to a different German and European Union policy toward Russia--
without Moscow doing anything to implement Minsk II.

The Role of OSCE

    OSCE has played an important role in trying to resolve the conflict 
in the Donbas. The Trilateral Contact Group is headed by a special 
representative of the OSCE Chairperson-in-Office. In addition to OSCE, 
representatives of Ukraine and Russia are the other formal 
participants, and representatives of the Russian/separatist-
occupied parts of Donetsk and Luhansk often take part. The Trilateral 
Contact Group has four working groups, which address political, 
security, humanitarian and economic questions. It has several times 
attempted to work out a true ceasefire, but with little success.
    OSCE also provides a special monitoring mission, which is a 
civilian, unarmed mission that operates throughout Ukraine. The special 
monitoring mission currently has about 700 monitors. Many of them are 
deployed in eastern Ukraine, where the mission has been tasked with 
observing and reporting on the implementation of the Minsk II 
provisions on a ceasefire and withdrawal of heavy weapons from the line 
of contact. Unfortunately, the reports all too often document where 
Minsk II provisions are not observed. Still, the OSCE mission is 
important for the credibility of its observations, when there are often 
conflicting reports as to developments on the ground.
    OSCE also maintains an observer mission at two checkpoints on the 
Russian border with occupied parts of the Donbas: Gukovo and Donetsk. 
While that presence allows reporting of what crosses from Russia into 
Ukraine (and vice-versa) at those two locations, there are many other 
border crossing points where Russian and separatist forces can cross 
freely without being observed by OSCE or other monitors on the ground.
    Were Minsk II to be implemented, the special monitoring mission 
could expand its work and observe how additional Minsk II provisions 
were being implemented. OSCE also maintains a project coordinator in 
Kyiv to synchronize various OSCE activities aimed at promoting a 
variety of programs, including in the areas of constitutional, legal, 
human rights, media freedom, election and governance reforms.
    The OSCE Permanent Council in Vienna provides a venue for the 
member states to exchange views on the Ukraine-Russia conflict and the 
situations in the Donbas and Crimea. Western delegations frequently use 
that forum to highlight where Russia or the separatists have violated 
Minsk II or OSCE commitments, such as to respect human rights. Such 
naming and shaming may not suffice to overcome Moscow's reluctance to 
implement Minsk II, but it serves to spotlight where the problem lies.
    OSCE has not, however, been able to play a larger role in forcing a 
settlement to the ongoing conflict in the Donbas or the unsettled 
status of Crimea. That reflects the limitations of an organization that 
operates by consensus, in which Russia can block any OSCE effort with 
which it disagrees. For example, the Ukrainian government has in the 
past suggested that an armed OSCE police force might help to stabilize 
the situation in the Donbas, a proposal that has little chance of being 
developed given Russian opposition.
    More broadly, Russia's aggression against Ukraine has weakened 
OSCE. One of the fundamental purposes of the organization is to promote 
a more peaceful, stable and secure Europe. Moscow's seizure of Crimea 
and actions in the Donbas undercut that goal and, unfortunately, make 
OSCE appear less effective as an organization.

U.S. and Western Policy

    The United States and the West should continue to provide political 
support to Kyiv and, provided the Ukrainian government more effectively 
implements economic reforms and anti-corruption measures, additional 
economic assistance. It is also important that the United States 
continue to provide military assistance. This should include certain 
types of lethal assistance for the Ukrainian military, in particular 
man-portable anti-armor weapons, to increase the Ukrainians' capability 
to deal with the influx of Russian armor into the Donbas. The purpose 
of such assistance is not to give the Ukrainian military the ability to 
retake the Donbas. The military leadership in Kyiv understands that 
they cannot defeat the Russian army. The purpose of such assistance is 
to give the Ukrainians the ability to deny the Russian/separatist 
forces the ability to make easy gains, to deter further offensive 
actions, and to encourage the Kremlin to pursue a political settlement.
    In parallel, U.S. and Western policy should aim to press Moscow to 
change its course in Ukraine and, as a matter of priority, work for a 
reasonable settlement in the Donbas. That is necessary to stop the 
fighting that has claimed some 10,000 lives.
    The United States, European Union and other Western countries 
should continue to put political and economic pressure on the Kremlin. 
That means avoiding business as usual. When Mr. Putin observed the 
military parade in Red Square at Russia's VE Day commemoration on May 
9, the only foreign leader to join him was the president of Moldova. 
That conveys to the Russian people a sense of the political isolation 
brought about by the Kremlin's policies. Mr. Putin clearly would like 
some normalization of the relationship with Washington. The Trump 
administration should make clear that Russia's aggression against 
Ukraine poses a major obstacle to such normalization.
    Continuing to put pressure on the Kremlin also means maintaining 
the current economic and other sanctions that have been applied against 
Russia. To encourage Moscow to alter its course of maintaining a 
simmering conflict in the Donbas, the West should consider increased 
economic sanctions as well as an expansion of the number of Russian 
individuals targeted for visa bans and asset freezes; broadening visa 
bans to apply to family members could dramatically increase their 
impact. However, finding agreement on such steps could be difficult 
with the European Union, when some member states wish to return to 
business as usual with Moscow. It is also unclear if the Trump 
administration would favor additional sanctions. Congress should 
encourage the administration to do so.
    In addition, it is important that the administration and NATO 
continue the steps agreed at last year's NATO summit in Warsaw to 
enhance the Alliance's conventional deterrence and defense capabilities 
in the Baltic region and Central Europe. Such steps will lead to more 
secure European allies who will be more confident in supporting 
Ukraine.The United States should also continue to support the German 
and French efforts to promote a solution to the Ukraine-Russia 
conflict. It is very difficult to see Minsk II being implemented, in 
large part due to Moscow's demonstrated disinterest. But Minsk II 
remains the only settlement process on the table, and Washington should 
encourage Kyiv to continue to engage. If Minsk II collapses--some might 
say when it collapses--it should be clear that Russia and the 
separatists bear full responsibility.
    It is important to continue to engage Moscow. At the end of the 
day, Ukraine needs a settlement that has Russian buy-in. Otherwise, 
Moscow has too many levers that it can use to make life difficult for 
Kyiv and deny Ukraine a return to normalcy.
    Finally, on Crimea. While one might envisage a settlement regarding 
the Donbas at some future point, it is all but impossible to imagine 
Mr. Putin or any future Russian leader agreeing to Crimea's return to 
Ukraine. At present, Kyiv lacks the political, economic and military 
leverage to change that. The Donbas fighting has been far more deadly, 
but the seizure of Crimea has been more destructive of the cardinal 
tenet of the Final Act: that states should not use military force to 
change borders or take territory from other countries. The United 
States and the West should not accept this. They should continue a 
policy of non-recognition of Crimea's illegal annexation and continue 
sanctions related to the peninsula until such time as Ukrainian 
sovereignty is restored or the Ukrainian government reaches some other 
settlement with Russia.

Conclusion

    Mr. Chairman, Co-Chairman Smith, members of the Commission,
    Over the past three years, Russia has employed military force to 
seize Crimea, and instigate and sustain a bloody armed conflict in the 
Donbas in pursuit of the Kremlin's goal of asserting a sphere of 
influence in the post-Soviet space and frustrating the ability of 
Ukrainians to realize their ambition of becoming a normal democratic 
European state.
    These Russian actions are in stark violation of Russia's 
commitments under the Helsinki Final Act and other agreements, 
including the 1994 Budapest Memorandum on Security Assurances to 
Ukraine. These actions endanger peace and stability in Europe. 
Moreover, they raise concern that the Kremlin might be tempted to use 
force elsewhere in Europe.
    The United States should work with its European partners to respond 
in a serious way. They should continue to provide Ukraine with 
political, economic and military support; maintain and intensify 
economic and other sanctions on Russia to induce a change in Kremlin 
policy; and keep open channels of communication for a settlement if 
Moscow alters its policy. This will require a sustained, patient 
effort. That is essential if we wish to realize the kind of Europe that 
was envisaged when the Final Act was signed in 1975.

                                 <all>





  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
